<html>
<title> - UNACCOMPANIED CHILDREN AT THE BORDER: FEDERAL RESPONSE AND THE WAY FORWARD</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]



 
  UNACCOMPANIED CHILDREN AT THE BORDER: FEDERAL RESPONSE AND THE WAY 
                                FORWARD

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     BORDER SECURITY, FACILITATION,
                             AND OPERATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2021

                               __________

                           Serial No. 117-16

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                     

        Available via the World Wide Web: http://www.govinfo.gov
        

                             __________
       
                U.S. GOVERNMENT PUBLISHING OFFICE 
 45-194 PDF               WASHINGTON : 2021                         
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                                 ------                                

     SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, AND OPERATIONS

             Nanette Diaz Barragan, California, Chairwoman
J. Luis Correa, California           Clay Higgins, Louisiana, Ranking 
Emanuel Cleaver, Missouri                Member
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Andrew S. Clyde, Georgia
    officio)                         John Katko, New York (ex officio)
            Brieana Marticorena, Subcommittee Staff Director
             Vacancy, Minority Subcommittee Staff Director
                    Zachary Wood, Subcommittee Clerk
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Nanette Diaz Barragan, a Representative in Congress 
  From the State of California, and Chairwoman, Subcommittee on 
  Border Security, Facilitation, and Operations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                               Witnesses

Mr. David Shahoulian, Assistant Secretary for Border Security and 
  Immigration, U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Benjamine ``Carry'' Huffman, Executive Assistant 
  Commissioner, Enterprise Services, U.S. Customs and Border 
  Protection:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Ms. Katherine Dueholm, Acting Deputy Assistant Secretary for 
  Western Hemisphere Affairs, U.S. Department of State:
  Oral Statement.................................................    23
  Prepared Statement.............................................    24
Mr. Patrick J. Lechleitner, Acting Executive Associate Director, 
  Homeland Security Investigations, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    26
  Prepared Statement.............................................    27


  UNACCOMPANIED CHILDREN AT THE BORDER: FEDERAL RESPONSE AND THE WAY 
                                FORWARD

                              ----------                              


                        Thursday, June 10, 2021

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border Security, 
                              Facilitation, and Operations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., via 
Webex, Hon. Nanette Diaz Barragan [Chairwoman of the 
subcommittee] presiding.
    Present: Representatives Barragan, Correa, Cleaver, Green, 
Clarke, Higgins, Bishop, and Clyde.
    Also present: Representatives Katko and Thompson.
    Chairwoman Barragan. The Subcommittee on Border Security, 
Facilitation, and Operations will come to order.
    The subcommittee is meeting to hear Federal Government 
perspectives on addressing the challenge of unaccompanied 
children arriving at the U.S.-Mexico border.
    Today's hearing is a follow-up to this subcommittee's April 
hearing. We examined the care of unaccompanied children in 
Federal custody and received recommendations from non-
governmental stakeholders on the way forward. As we heard in 
April, both Democratic and Republican administrations have been 
confronted with the challenge of unaccompanied children 
arriving from Mexico, Central America, and farther abroad.
    Migrants, including migrant children, take the perilous 
journey north to escape unspeakable conditions and dangers at 
home. Just yesterday, CBP released its operational update for 
May, showing that CBP is encountering record numbers of 
migrants at our Southern Border. Many are fleeing from gang 
violence and threats to their lives, as well as natural 
disasters that have devastated their home countries. The 
pandemic has exacerbated these conditions.
    While the vast majority are single adults, who attempt to 
enter the United States again and again, the number of families 
and children seeking assistance remains high. However, it is 
important to put these numbers into context. While more 
encounters are happening at our border than in previous years, 
CBP encountered fewer individual people last month than during 
the last influx in May 2019 under the Trump administration. In 
addition, CBP encountered about 40,000 more children and 
families in May 2019 than they did last month. Encounters with 
children and families continue to decrease.
    Nonetheless, building the capacity to humanely process 
those arriving at our border remains a challenge. As we move 
forward, we must remember that the children, in particular, are 
extremely vulnerable. We must ensure they have access to all 
available legal protections here in the United States, as well 
as examine ways to provide protections closer to home. This is 
why I am pleased to have witnesses from the Department of 
Homeland Security and the Department of State before us to 
testify on the administration's efforts to provide humane care 
and protections for unaccompanied children.
    Over the last few months, the Biden administration has 
ramped up efforts to quickly transfer children from Customs and 
Border Protection custody to the Department of Health and Human 
Services. The Biden administration has also rapidly built 
capacity at DHS, particularly CBP, to provide proper care for 
migrant children. Capacity building has included the hiring of 
dozens of Border Patrol processing coordinators to help with 
the care, custody, and processing of children, along with 
expanding the Department's medical contract and contract for 
child care services.
    While not present today, I would also like to highlight the 
extraordinary work of Health and Human Services in quickly 
expanding their capacity to receive unaccompanied kids. 
Coordination has also improved across the interagency, helping 
expedite the processing and placement of children at our 
Southern Border. Finally, the Department of State has also been 
working to build the capacity of our neighbors to protect these 
children at home. Their works includes restarting the Central 
American Minors program that allows children to seek 
protections within their home country, supporting efforts to 
root out corruption within foreign governments, and overseeing 
investments into job training and other programs designed to 
help women and youth. However, I remain concerned with the 
initial delay of these efforts, which resulted in thousands of 
children being held in CBP custody for days, and sometimes 
weeks.
    The Department of Homeland Security saw signs of influx 
building as early as April 2020. Under the Trump 
administration, the Department apparently ignored these warning 
signs and chose not to build the capacity needed to safely 
process and care for vulnerable migrants. Thankfully, the 
Biden-Harris administration has taken swift, whole-of-
Government action. But we must be prepared to handle not only 
the current influx, but also implement long-term solutions to 
the challenge. We do not want to be faced with the same 
challenge again in 5 years.
    We must work together to create humane and effective border 
policies that prioritize the treatment of people in Federal 
Government custody. It is our legal and moral duty to ensure 
these children, no matter where they come from, are treated 
humanely and have full access to protections guaranteed them 
under law. While we have seen impressive progress over the last 
few months, there is no doubt more needs to be done. I look 
forward to hearing today from the witnesses, from the 
administration on the efforts to respond to this challenge.
    [The statement of Chairwoman Barragan follows:]
             Statement of Chairwoman Nanette Diaz Barragan
                             June 10, 2021
    Today's hearing is a follow-up to this subcommittee's April 
hearing. We examined the care of unaccompanied children in Federal 
custody and received recommendations from non-Governmental stakeholders 
on the way forward. As we heard in April, both Democratic and 
Republican administrations have been confronted with the challenge of 
unaccompanied children arriving from Mexico, Central America, and 
farther abroad.
    Migrants, including migrant children, take the perilous journey 
north to escape unspeakable conditions and dangers at home. Just 
yesterday, CBP released its operational update for May, showing that 
CBP is encountering record numbers of migrants at our Southern Border. 
Many are fleeing from gang violence and threats to their lives, as well 
as natural disasters that have devastated their home countries. The 
pandemic has exacerbated these conditions.
    While the vast majority are single adults, who attempt to enter the 
United States again and again, the number of families and children 
seeking assistance remains high. However, it's important to put these 
numbers into context. While more encounters are happening at our border 
than in previous years, CBP encountered fewer individual people last 
month than during the last influx in May 2019--under the Trump 
administration. In addition, CBP encountered about 40,000 more children 
and families in May 2019 than they did last month. Encounters with 
children and families continue to decrease.
    Nevertheless, building the capacity to humanely process those 
arriving at our border remains a challenge. As we move forward, we must 
remember that the children, in particular, are extremely vulnerable. We 
must ensure they have access to all available legal protections here in 
the United States, as well as examine ways to provide protections 
closer to home. That is why I am pleased to have witnesses from the 
Department of Homeland Security and the Department of State before us 
to testify on the administration's efforts to provide humane care and 
protections for unaccompanied children.
    Over the last few months, the Biden administration has ramped up 
efforts to quickly transfer children from Customs and Border Protection 
(CBP) custody to the Department of Health and Human Services (HHS). The 
Biden administration has also rapidly built capacity at DHS, 
particularly CBP, to provide proper care for migrant children. Capacity 
building has included the hiring of dozens of Border Patrol Processing 
Coordinators to help with the care, custody, and processing of 
children, along with expanding the Department's medical contract and 
contract for child care services.
    While not present today, I'd also like to highlight the 
extraordinary work of Health and Human Services in quickly expanding 
their capacity to receive unaccompanied kids. Coordination has also 
improved across the interagency, helping expedite the processing and 
placement of children at our Southern Border. Finally, the Department 
of State has also been working to build the capacity of our neighbors 
to protect these children at home. Their works includes restarting the 
Central American Minors program that allows children to seek 
protections within their home country, supporting efforts to root out 
corruption within foreign governments, and overseeing investments into 
job training and other programs designed to help women and youth. 
However, I remain concerned with the initial delay of these efforts, 
which resulted in thousands of children being held in CBP custody for 
days, and sometimes weeks.
    The Department of Homeland Security saw signs of influx building as 
early as April 2020. Under the Trump administration, the Department 
apparently ignored these warning signs and chose not to build the 
capacity needed to safely process and care for vulnerable migrants. 
Thankfully the Biden-Harris administration has taken swift, whole-of-
Government action. But we must be prepared to handle not only the 
current influx, but also implement long-term solutions to the 
challenge. We do not want to be faced with the same challenge again in 
5 years.
    We must work together to create humane and effective border 
policies that prioritize the treatment of people in Federal Government 
custody. It is our legal and moral duty to ensure that children, no 
matter where they come from, are treated humanely and have full access 
to protections guaranteed them under law. While we've seen impressive 
progress over the last few months, there is no doubt more that needs to 
be done. I look forward to hearing the witnesses' testimony on the 
administration's efforts to respond to this challenge.

    Chairwoman Barragan. Now, I would like to recognize the 
Ranking Member of the subcommittee, Mr. Higgins of Louisiana, 
for an opening statement.
    Mr. Higgins. Today, in this important hearing, I would like 
to attempt to frame this for Americans that are observing this 
hearing.
    The current crisis at our Southwest Border is worse than 
the migrant surges in both 2014 and 2019. I would like to touch 
on appropriations. Both of those surges resulted in emergency 
supplemental funding from Congress. We have yet to receive such 
a request during this current surge and crisis, despite the 
fact that on trips to the border Members have heard about fast-
depleting resources at Border Patrol facilities. I have serious 
concerns that funds appropriated by Congress for National 
security are being rerouted to address a humanitarian crisis at 
the border without being properly replenished.
    Vice President Harris was appointed to lead efforts to stop 
the crisis at the border. However, she has yet to witness what 
is happening first-hand. President Biden has yet to visit the 
border or facilities holding unaccompanied minors, a topic of 
discussion for today, part of the humanitarian crisis. We will 
cover it in depth today. Since his inauguration, our President 
has not been there.
    Interviews with Border Patrol agents have resulted in the 
reasonable acceptance of the simple fact that migrants are 
directly responding to the Biden administration's policies. It 
is why they are getting in the pipeline.
    So I would like to frame this for America. The Biden 
campaign messages to his base became the Biden-White House 
policies that we are witnessing right now. The cartels began 
filling their pipeline to maximum capacity last year about 
November. We are now well into 2021. Every illegal immigrant 
that is in the pipeline right now has arranged their passage 
and paid for their passage through that pipeline, that illegal 
pipeline of human beings and drugs. They put themselves in that 
pipeline since the Biden administration was inaugurated and 
certainly since November of last year.
    So what we are witnessing right now is layers of crisis. We 
are discussing the humanitarian crisis today and we will get 
into it in-depth, unaccompanied children. But we have a 
National sovereignty crisis as well. We have lost the 
sovereignty and control of our Southern Border. We must 
maintain our sovereignty as a Nation or all can be lost. The 
humanitarian crisis is in the focus right now, and it should be 
because we are a loving, compassionate, generous Nation, and we 
must deal with the sorrow and the pain and the extreme hardship 
that these children of God are facing as they come into our 
country illegally. But we have to do this with a balance 
enforcing our laws.
    We have a Constitutional crisis because we have a Federal 
Government that is mandating to our sovereign States and 
interfering with the enforcement of their own laws and their 
own law to protect their own sovereignty. We have a criminal 
crisis because the percentage of getaways has increased as law 
enforcement has been overwhelmed at the border. These are 
numbers that are only estimated. They cannot be accurately 
assessed but our best measure is that it is higher than it has 
been in modern history. The illegal immigrants that want to 
escape Border Patrol are the ones generally that are criminally 
involved with drug trafficking and human trafficking. So we 
have a criminal crisis that we are dealing with.
    Our committee certainly has a responsibility, and let me 
clarify it for the people, this committee has a duty to force 
action from the Executive branch where we feel that its 
policies are lacking or injurious. This is true at any time 
regardless of what party is in power.
    I look forward to bipartisan solutions. I respect our 
Chairwoman's leadership and I envision a bipartisan endeavor 
here that will result in actual answers for the American people 
because they certainly deserve it.
    Madam Chair, I yield.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
    Thank you, Madam Chair, for holding this important hearing. I'd 
like to attempt to frame this for Americans that are observing this 
hearing.
    The current crisis at our Southwest Border is worse than the 
migrant surges in both 2014 and 2019, both of those surges resulted in 
emergency supplemental funding from Congress. We have yet to receive 
such a request this time around, however, during a trip to the border, 
Members heard about the fast-depleting resources at Border Patrol 
facilities. I have serious concerns that funds appropriated by Congress 
for National security are being rerouted to address the humanitarian 
crisis at the border without being properly replenished.
    Vice President Harris was appointed to lead efforts to stop the 
crisis at the border, however she has yet to go down and witness what 
is happening first-hand. President Biden has also yet to visit the 
border or facilities holding unaccompanied minors since his 
inauguration.
    Interviews with Border Patrol agents have resulted in reasonable 
acceptance of the fact that migrants are directly responding to the 
Biden administration's policies. It's why they're getting in the 
pipelines.
    I'd like to frame this for America. The Biden campaign's messages 
to their base became Biden White House policies that we're witnessing 
right now. The cartels began filling their pipeline to maximum capacity 
last year, back in November. We're now well into 2021. Every illegal 
immigrant that's in the pipeline right now has arranged their passage 
through that pipeline--an illegal pipeline of human beings and drugs. 
They put themselves in that pipeline since the Biden administration was 
inaugurated and certainly since November of last year.
    What we're witnessing right now is layers of crisis. We're 
discussing the humanitarian crisis today. We have a National 
sovereignty crisis as well. We have lost the sovereignty and control of 
our Southern Border. We must maintain our sovereignty as a Nation or 
all can be lost.
    The humanitarian crisis is in the focus right now and it should be 
because we're a loving, compassionate, generous Nation, and we must 
deal with the sorrow, pain, and extreme hardship that these children 
are facing as they come into our country illegally. But we have to do 
this with a balance enforcing our laws.
    We have a Constitutional crisis. We have a Federal Government 
that's mandating to our sovereign States and interfering with their own 
laws and their own right to protect their own sovereignty.
    We have a criminal crisis. The percentage of gotaways has increased 
as law enforcement has been overwhelmed at the border. The numbers are 
only estimated; they can't be accurately assessed, but our best measure 
is that it's higher than it's been in modern history. The illegal 
immigrants that want to escape Border Patrol are the ones generally 
that are criminally involved with drug trafficking or human 
trafficking.
    This committee has a duty to force action from the Executive branch 
when we feel that its policies are lacking or injurious. This is true 
at any time regardless of which party is in power. I look forward to 
bipartisan solutions. I respect our Chairwoman's leadership, and I 
envision a bipartisan endeavor here that will result in actual answers 
for the American people because they certainly deserve them.

    Chairwoman Barragan. I thank the Ranking Member.
    I do take issue, unfortunately, with your description of an 
illegal pipeline of human beings and drugs, and hopefully, that 
will be a conversation we can have with our witnesses. These 
are people and these are people that are coming to make use of 
asylum laws that we have in this country. That is legal to do. 
So hopefully, Mr. Ranking Member----
    Mr. Higgins. Will the gentlelady yield for a one-sentence 
response?
    Chairwoman Barragan. Yes.
    Mr. Higgins. Yes, ma'am. The pipeline, the cartel pipeline 
as it has commonly been referred to for a couple of decades as 
a human and drug trafficking pipeline. It runs from Venezuela 
through Colombia, the Darien Gap, Panama, Central America, 
Mexico, to our Southern Border. That is the pipeline. Nothing 
passes without paying a cartel. Human beings and drugs. So my 
commitment to a passionate response to the children of God that 
are suffering and crossing our Southern Border illegally has 
been well-stated.
    Chairwoman Barragan. Well, Mr. Ranking Member, you and I 
will disagree.
    Mr. Higgins [continuing]. Use of it as a pipeline and the 
description as inaccurate.
    Chairwoman Barragan. Mr. Higgins, you know, I just wanted 
to note that, you know, I was hoping that as you mentioned at 
the outset of your comments this would be a productive 
bipartisan conversation but it does not help when we start to 
villainize immigrants. I think that is what I was trying to get 
out. So we do not have to hash it out now. Hopefully, we will 
get information from our witnesses today that will help that 
situation out.
    With that said, we are going to move on.
    Members are reminded that the subcommittee will operate 
according to the guidelines laid out by the Chairman and the 
Ranking Member in their July 8 colloquy.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Is Mr. Thompson available? I do not see him here. Let's 
give him a second here.
    Mr. Cleaver. Madam Chair.
    Chairwoman Barragan. Yes, Mr. Cleaver.
    Mr. Cleaver. He was just in another meeting so I am 
assuming that he is trying to get back over here.
    Chairwoman Barragan. OK. Thank you.
    With that, is Mr. Katko, the full committee's Ranking 
Member available for an opening statement? I do not see him.
    Mr. Katko. I am available. Yes.
    Chairwoman Barragan. Oh, there you are. Mr. Katko, the 
Ranking Member of the full committee, you are now recognized, 
the gentleman from New York, for an opening statement.
    Mr. Katko. Thank you, Madam Chair.
    I am pleased that the subcommittee is holding a hearing 
today on a topic all of us care deeply about, the welfare of 
children crossing the Southwest Border.
    Some of these children arrive alone and afraid with nothing 
but the clothes on their backs. Others arrive with loved ones 
hoping for a better life in the United States. Many children 
making the dangerous journey to the United States face tragic 
circumstances of abuse, illness, violence, and trafficking 
along the way. Increasingly, drug cartels use children as pawns 
to distract Border Patrol agents as illicit drugs are smuggled 
across the border.
    I have now taken 2 trips to the Southern Border in the last 
couple of months, and I also lived on the Southwest Border as a 
Federal organized crime prosecutor going after cartels in the 
mid-1990's, so I am intimately familiar with the well-worn 
drug-trafficking habits, and they have not changed over the 
decades.
    Like I said, I have taken 2 trips to the border and that is 
something that has not been done by either President Biden or 
Vice President Harris, who is tasked with trying to clean up 
the mess created by this administration. The stories my 
colleagues and I heard from the front-line men and women of 
Homeland Security about the dueling humanitarian security and 
public health crises were incredibly disturbing with CBP 
encountering more than 14,000 unaccompanied children and single 
minders at the Southwest Border in May 2021 alone, 
approximately 14 times the number encountered in the same month 
just 1 year ago. Think about that. Fourteen times more.
    That is as an already strained work force continues to face 
a lack of capacity and resources to effectively manage this 
crisis.
    Additionally, I am troubled that the Biden administration 
has reportedly removed important protections related to vetting 
the sponsors to whom unaccompanied children are released, while 
also waiving background check requirements for caregivers at 
migrant care facilities.
    These troubling changes in policy are doubly concerning 
amongst recent reports of abuse at these facilities. Moreover, 
as we anticipate changes to enforcement of Title 42 public 
health authorities at the border and with the elimination of 
the critical Remain in Mexico policy, our front-line law 
enforcement officers are being undermined by their own 
Government's policies at a time when they need more resources, 
more support, not less. That is not coming from me; that is 
coming from them. If the President and Vice President went to 
the border they would be told just that.
    The President's budget proposal allows for not a single 
additional Border Patrol agent despite a 20-year high in 
migrant numbers. Meanwhile, the Vice President speaks in vague, 
hollow terms about what the United States is doing long-term 
down in Guatemala while dismissing calls for her to visit the 
Southwest Border.
    Unaccompanied children are suffering at the hands of human 
smugglers on a dangerous journey. In short, they are being 
exploited. Those that make it into the United States are often 
exploited by cartels and gangs.
    I hope that this hearing today will be an honest 
examination of the conditions facing these children on the 
ground, as well as the challenges facing the front-line men and 
women of our Homeland Security who are working admits dire 
circumstances.
    Before I close, I do want to note this: In the city of 
Syracuse alone, we have some of the highest concentrations of 
poverty in the United States of America. Those pockets of 
poverty exist all across this country. As an organized crime 
prosecutor in Syracuse, while prosecuting gang cases, I saw 
first-hand the devastating effects of this extreme poverty on 
our communities and it often leads to a life of crime and an 
early death for these kids. It is tragic. Money that could be 
spent to help these kids, American citizen children, are 
instead being used to deal with a crisis at the border that 
this administration created on January 20. There is not an 
agent that works on the border that will tell you anything 
other than the fact that everything changed on January 20 when 
the President changed those Executive Orders. I really hope 
that we have a sober discussion about that today. This is not a 
Democratic issue or a Republican issue. As you all know, I am 
one of the most bipartisan Members in Congress. But we are 
doing a very major disservice to our communities by ignoring 
the challenges at the border.
    I do want to thank our witnesses for appearing today before 
the committee and I yield back the balance of my time. Thank 
you.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you, Madam Chair. I am pleased that this subcommittee is 
holding a hearing today on a topic all of us care deeply about: The 
welfare of children crossing the Southwest Border.
    Some of these children arrive alone and afraid, with nothing but 
the clothes on their backs. Others arrive with loved ones, hoping for a 
better life in the United States. Many children making the dangerous 
journey to the United States face tragic circumstances of abuse, 
illness, violence, and trafficking along the way. Increasingly, drug 
cartels use children as pawns to distract Border Patrol agents as 
illicit drugs are smuggled across the border.
    I have now taken 2 trips to the Southern Border in the last couple 
of months to see the situation first-hand--something not done by either 
President Biden or Vice President Harris, who was tasked with trying to 
clean up the mess created by this administration. The stories my 
colleagues and I heard from the front-line men and women of DHS about 
the dueling humanitarian, security, and public health crises were 
incredibly disturbing. With CBP encountering more than 14,000 
unaccompanied children and single minors at the Southwest Border in May 
2021 alone--approximately 14 times the number encountered in the same 
month just 1 year ago--an already strained workforce continues to face 
a lack of capacity and resources to effectively manage this crisis.
    Additionally, I am troubled that the Biden administration has 
reportedly removed important protections related to vetting the 
sponsors to whom unaccompanied children are released, while also 
waiving background check requirements for caregivers at migrant care 
facilities. These troubling changes in policy are doubly concerning 
amongst recent reports of abuse at these facilities.
    Moreover, as we anticipate changes to enforcement of Title 42 
public health authorities at the border and with the elimination of the 
critical ``remain in Mexico'' policy, our front-line law enforcement 
are being undermined by their own Government's policies at a time when 
they need more resources and more support--not less. The President's 
budget proposal allows for not a single additional Border Patrol agent, 
despite a 20-year high in migrant numbers. Meanwhile, the Vice 
President speaks in vague, hollow terms about what the United States is 
doing long-term down in Guatemala, while dismissing calls for her to 
visit the Southwest Border.
    Unaccompanied children are suffering at the hands of human 
smugglers on their dangerous journey to the United States. Those that 
make it into the United States are often exploited by cartels and 
gangs.
    I hope that this hearing today will be an honest examination of the 
conditions facing these children on the ground, as well as the 
challenges facing the front-line men and women of DHS working amidst 
dire circumstances.
    Before I close, I do want to note this: In the city of Syracuse, we 
have some of the highest concentrations of poverty in the United States 
of America. Those pockets of poverty exist all across this country. As 
an organized crime prosecutor in Syracuse prosecuting gang cases, I saw 
first-hand the devastating effects of this extreme poverty on our 
communities. It often leads to a life of crime and in early death for 
these kids. It's tragic.
    Money that could be spent to help these kids--American citizen 
children--is instead being used to deal with a crisis at the border 
that this administration created on January 20. There's not an agent 
that works on the border that will tell you anything other than the 
fact that everything changed on January 20 when the President changed 
those Executive Orders.
    I really hope that we have a sober discussion about that today. 
This is not a Democratic issue or a Republican issue. As you all know, 
I'm one of the most bipartisan Members in Congress. We are doing a 
major disservice to our communities by ignoring the challenges at the 
border.
    I thank our witnesses for appearing before the Committee today, and 
I yield back the balance of my time.

    Chairwoman Barragan. Thank you, Mr. Ranking Member.
    I now welcome our panel of witnesses.
    David Shahoulian is the assistant secretary for border 
security and immigration at the Department of Homeland 
Securities Office of Strategy, Policy, and Plans. In his role, 
Mr. Shahoulian coordinates and develops policy for DHS 
headquarters and component heads.
    Mr. Benjamin Cary Huffman is the executive assistant 
commissioner of enterprise services for U.S. Customs and Border 
Protection. In his role, Mr. Huffman oversees component-wide 
efforts to improve and increase collaboration among CBP offices 
that provide services to front-line operators.
    Katherine Dueholm is the acting deputy assistant secretary 
for western hemisphere affairs at the U.S. Department of State. 
In her role, Ms. Dueholm is responsible for U.S. engagement 
with Mexico and Central America.
    Patrick Lechleitner is the acting executive associate 
director for homeland security investigations at U.S. 
Immigration and Custom Enforcement. In his role, he oversees 
the principal investigative component of the Department of 
Homeland Security that is responsible for investigating and 
disrupting transnational, criminal organizations, and terrorist 
networks seeking to exploit U.S. customs or immigration laws.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes beginning with Mr. Shahoulian. Shahoulian, my 
apologies.

 STATEMENT OF DAVID SHAHOULIAN, ASSISTANT SECRETARY FOR BORDER 
 SECURITY AND IMMIGRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Shahoulian. No worries.
    Chairwoman Barragan, Ranking Member Higgins, Chairman 
Thompson, Ranking Member Katko, and distinguished Members of 
the subcommittee, it is an honor to update the subcommittee on 
what the administration is doing to address the needs at the 
border and specifically, the needs of unaccompanied children.
    As Secretary Mayorkas has said, DHS is working tirelessly 
to manage the surge of migrants at the Southwest Border. Every 
day, the brave men and women of the Department take the steps 
necessary to restore safe and orderly processing across the 
order.
    Although migrant encounters dropped at the beginning of the 
pandemic, encounters overall have been rising since April 2020 
when public health-related restrictions were first implemented 
at the border and throughout the region. Between April 2020 and 
January 2021, we saw a 1,000 percent increase in apprehensions 
along the Southwest Border. In April 2021, CBP encountered 
178,000 individuals at the Southwest Border. Of these, 17,000 
were unaccompanied children.
    These numbers are challenging. But at the same time, we 
must note that they do overstate migration flows. Due to the 
use of Title 42 expulsion authority, the rate of repeat 
encounters, particularly among single adults, has been much 
higher than normal. Although we are seeing more encounters than 
in the peak of 2019, the number of unique encounters remains 
lower than it was then. Of course, this fact does not reduce 
the impact of total encounters on the Department and its 
personnel, it is a reminder that encounter numbers do not tell 
the whole story and that migration searches have varied and 
complicated causes.
    One thing is clear. The decision made by families and 
children to undertake the dangerous journey does not come 
lightly and it underscores the need for a comprehensive 
regional approach to address irregular migration.
    Among other things, we must deal with the factors that 
cause people to flee in the first place, including the on-going 
violence, corruption, natural disasters, and lack of basic 
opportunities that plague various countries in the region. We 
must also provide alternative, lawful avenues for migration and 
for finding other forms of safety in the region. We must 
increase the capacity of countries in that hemisphere to take 
displaced persons and we must overhaul and streamline our 
procedures for processing individuals and adjudicating asylum 
claims at the border. Efforts in each of these areas are 
already under way.
    By working closely with partners in the region and with a 
whole-of-Government approach, we can holistically address the 
situation in the region and at the border. The work we have 
already accomplished with unaccompanied children is an example 
of what we can achieve. Over the last several months, Secretary 
Mayorkas directed various parts of DHS to support an all-of-
Government effort to address the needs of children. As part of 
these efforts, FEMA worked with HHS to significantly expand 
emergency influx shelter capacity. DHS established an 
interagency movement coordination cell to bring together 
colleagues across FEMA, CBP, ICE, USCIF, and HHS to streamline 
operations in support of the rapid transfer of unaccompanied 
children from CBP to ORR custody.
    USCIF provided hundreds of officers to help interview and 
vet potential sponsors, and DHS has provided hundreds of 
volunteers to assist CBP and HHS with oversight and logistics. 
Due to these efforts, we have completely transformed the 
processing of unaccompanied children.
    On March 29 of this year, more than 5,700 children were in 
Border Patrol stations. As of June 8, there were 514. On March 
29, more than 4,000 children were held over the 72-hour legal 
limit. As of June 8, there were none. On March 29, the average 
time of a child in a Border Patrol station was 133 hours. As of 
June 8, it was 21.
    Addressing the needs of unaccompanied children is an 
important step but it also highlights the need for long-term 
solutions, including ones that provide legal and safe 
alternatives to the dangerous journey that so many have decided 
to attempt. Unfortunately, some of these very programs were 
dismantled by the last administration. But this President and 
this administration have made it clear that we are committed to 
rebuilding our Nation's immigration system and reforming 
immigration policies in a manner that is consistent with our 
laws and with our values as a Nation.
    As Secretary Mayorkas has said, our goal is a safe, legal, 
and orderly immigration system that is based on our bedrock 
priorities--to keep our border secure, address the plight of 
children as the law requires, assess asylum claims as required 
by law, and enable families to be together.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Shahoulian follows:]
                 Prepared Statement of David Shahoulian
                             June 10, 2021
                              introduction
    Chairwoman Barragan, Ranking Member Higgins, and distinguished 
Members of the subcommittee: It is an honor to appear before you today 
to discuss the important steps the Department of Homeland Security (DHS 
or Department) is taking to address the needs of unaccompanied 
children, as well as our overall efforts along the Southwest Border.
    I am proud to serve alongside the many brave men and women of the 
Department who are working tirelessly to address the surge of migrants, 
including unaccompanied children, at our Southwest Border. Every day we 
take significant steps to rebuild and improve the capacity necessary to 
expand safe and orderly processing at our borders. DHS and the 
administration are committed to rebuilding our Nation's immigration 
system and reforming immigration policies consistent with our laws and 
our values as a Nation.
                           border challenges
    Challenges at the border, including surges in migration, are not 
new. Every administration in modern history has had to deal with 
significant spikes in arrivals at our Southwest Border.
    The causes of such migration challenges have always been varied and 
complex. Over the last few years, however, a number of factors in the 
Northern Triangle region (El Salvador, Guatemala, and Honduras) have 
coincided to further exacerbate dislocation and migration in the 
region. These factors include corruption and political instability; 
persistent violence, including high rates of gender-based violence; 
droughts, hurricanes, and other natural disasters; and limited economic 
opportunity. The COVID-19 global pandemic only compounded this already 
challenging situation.
    Although encounters at the Southwest Border plummeted at the 
beginning of the pandemic, when public health-related restrictions were 
first implemented at the border and throughout the region, encounters 
have steadily increased since then. Between April 2020 and January 
2021, for example, the Department saw a 1,000 percent increase in 
apprehensions along the Southwest Border. And those numbers have 
continued to rise. In March and April 2021, U.S. Customs and Border 
Protection (CBP) encountered more than 170,000 individuals each month 
at the Southwest Border.
    It is important to note that while recent encounter numbers are 
high, they also somewhat overstate migration flows, particularly among 
single adults. Since March 2020, the Department has been assisting the 
Centers for Disease Control and Prevention (CDC) in implementing a 
public health order temporarily suspending the introduction of certain 
persons from countries where a communicable disease exists (the ``CDC 
Order'') pursuant to Title 42 of the United States Code (``Title 42''). 
Under that authority, DHS continues to expel the majority of single 
adults and many families encountered at the border. In part because 
expulsions do not carry a legal immigration consequence, DHS is seeing 
significantly higher-than-normal repeated crossing attempts. In other 
words, the Department is often encountering the same individual 
multiple times after being encountered and expelled from the United 
States.
    Thus, although the Department is seeing more total encounters now 
than in May 2019 (the peak month that year), the number of unique 
encounters remains lower than the number of such encounters in May 
2019. Of course, the high re-encounter rate does not minimize the 
impact of current encounters on the Department. But it does serve as a 
reminder that encounter numbers do not tell the whole story and that 
migration surges have varied and complicated causes.
    It is clear that the decision made by many families and children to 
undertake the dangerous journey to the United States does not come 
lightly, and it underscores the need for a comprehensive regional 
approach for addressing irregular migration. There is no one single 
solution.
    The administration's approach was first laid out by President Biden 
in his Executive Order on Creating a Comprehensive Regional Framework 
to Address the Causes of Migration, to Manage Migration Throughout 
North and Central America, and to Provide Safe and Orderly Processing 
of Asylum Seekers at the United States Border. Among other things, we 
must deal with the factors that cause individuals to flee in the first 
place, including the on-going violence, corruption, natural disasters, 
and lack of basic opportunities--including poverty and lack of 
opportunity exacerbated by gender inequality--that plague various 
countries in the region and that drive people to leave their homes. 
This is the only true long-term solution.
    We must also work collaboratively with countries in the region to 
provide alternative avenues for migration, including access to 
temporary work opportunities, and other forms of securing safety, 
including by increasing the capacity of countries in the region to take 
and assist displaced persons. Until we address the root causes that 
push people to migrate in the first place and establish lawful, safe, 
and orderly pathways for people to seek protection or opportunity, we 
will likely continue to see an increase in unauthorized migration at 
our Southwest Border.
    Finally, we must reform our procedures for processing individuals 
at the border, including adjudicating the asylum claims of those who 
make them. The long-standing system for adjudicating cases arising out 
of the border was designed years ago, when the demographic makeup of 
border encounters--including the percentage of individuals making 
asylum claims--was vastly different than it is today. The current 
system is simply not designed to efficiently adjudicate the cases we 
are seeing today, resulting in dysfunction that only exacerbates the 
country's migration challenges.
    Efforts in each of the above areas are already under way. DHS is 
supporting the Department of State, the U.S. Agency for International 
Development, and other Federal agencies to address drivers of migration 
in the region, to support other countries as they work to respond to 
humanitarian needs and improve their respective humanitarian protection 
systems, and to expand lawful avenues for migration to the United 
States and other countries. DHS is also developing policies and 
procedures that promote safe and orderly processing of asylum claims at 
our borders, and that ensure those claims are adjudicated in a timely 
and fair manner.
    By working closely with partners in the region, and with a whole-
of-Government approach, we can holistically address the migration 
dynamics in the region and at the Southwest Border. The work we have 
already accomplished with unaccompanied children, which I address 
further below, is an example of what we can achieve.
                         covid-19 and title 42
    The global pandemic has exacerbated the challenges we face at the 
border. In March 2020, DHS began assisting the CDC in implementing its 
public health order under Title 42, and the Department has continued to 
work alongside the CDC to implement key safety measures and guidance. 
The public health and safety of border communities, U.S. Government 
personnel, and those we encounter remain a top priority.
    DHS continues to expel the majority of single adults and many of 
the families it encounters. Unaccompanied children remain excepted from 
the CDC Order.
    In certain situations, the Department may except individuals from 
the CDC Order, process them under Title 8 of the United States Code, 
and place them into immigration proceedings. As permitted by the CDC 
Order, such exceptions are determined on a case-by-case basis in 
consideration of the totality of the circumstances. In consultation 
with the CDC, the Department has created a streamlined system to 
facilitate the efficient processing of individuals in particularly 
vulnerable situations who may warrant such exception under Title 42. 
Pursuant to this process, DHS may process certain vulnerable 
individuals safely while protecting our National security and 
safeguarding public health. Addressing the situation of migrants in 
vulnerable situations is aligned with both our National interests and 
our values as a Nation.
    DHS employs all necessary safety precautions throughout our 
facilities in accordance with the CDC's public health guidance, 
including mandatory face coverings and social distancing to the maximum 
extent possible. DHS has also followed recommendations to limit the 
temporary holding capacity within U.S. Border Patrol facilities by up 
to 75 percent to allow for social distancing.
    DHS will continue to assist the CDC in implementing the CDC Order 
while it reassess the public health need for the order. As Secretary 
Mayorkas has said before, the administration will not keep the Title 42 
restrictions in place longer than necessary for public health and 
safety.
                         unaccompanied children
    DHS has stopped the prior administration's practice of expelling 
vulnerable unaccompanied children pursuant to Title 42, and the 
Department is working in tandem with the Office of Refugee Resettlement 
(ORR) within the Department of Health and Human Services (HHS) to 
ensure such children are transferred to ORR custody as promptly and as 
safely as possible.
    The Biden administration has employed a whole-of-Government 
approach to solve issues related to the care, transfer, and placement 
of unaccompanied children, and it is strongly committed to preventing 
the exploitation of this vulnerable population. Generally, when CBP 
encounters an unaccompanied child, its officers and agents are required 
to transfer the child to ORR custody within 72 hours of the 
unaccompanied child determination. Unaccompanied children are tested 
for COVID-19 upon transfer to ORR, which is generally responsible for 
placing such children with sponsors in the United States. In more than 
80 percent of cases, a family member in the United States is available 
to sponsor the child for the duration of the child's immigration 
proceedings.
    In partnership with HHS, the Department has taken steps to identify 
and create significant efficiencies in the above-described process. 
Among other things, the Department has assisted HHS to significantly 
expand its emergency influx shelter capacity; established an 
interagency Movement Coordination Cell (MCC) to streamline operations 
in support of the timely transfer of unaccompanied children from DHS to 
ORR custody; provided hundreds of U.S. Citizenship and Immigration 
Services (USCIS) officers to help interview and vet potential sponsors; 
and activated the DHS volunteer workforce, through which approximately 
300-400 volunteers across the country are assisting CBP and ORR with 
oversight and logistics at any given time.
    As a result of these efforts, DHS and HHS have been able to 
drastically reduce the number of unaccompanied children in CBP custody 
as well as the time such children spend in such custody. On March 29, 
2021, more than 5,700 unaccompanied children were in Border Patrol 
stations. As of June 8, there were 514. On March 29, more than 4,000 
children were held over the 72-hour legal limit. As of June 8, there 
were none. On March 29, the average time of an unaccompanied child in a 
Border Patrol station was 133 hours. As of June 8, it was 21 hours.
    Currently, all unaccompanied children are screened for trafficking 
by CBP. Incidences of child trafficking, or suspected cases of child 
trafficking, are reported to Homeland Security Investigations (HSI) 
within U.S. Immigration and Customs Enforcement (ICE) and, as 
appropriate, the HHS Office of Trafficking in Persons.
        border security and transnational criminal organizations
    When an individual or family decides to make the long and dangerous 
journey to our Southwest Border, or makes the difficult decision to 
send a child alone, these actions often attract corrupt actors seeking 
to exploit these sensitive populations. Transnational criminal 
organizations (TCOs) that smuggle or traffic migrants place profit over 
the value of human life, often with devastating consequences. These 
organizations are complicit in sexual assaults, human trafficking, and 
abandonment of vulnerable migrants--including young children. 
Unfortunately, many migrants fall victim to their manipulation and 
abuse.
    The Department, through CBP and HSI, takes these threats seriously 
and has long worked to disrupt and dismantle these criminal 
organizations. In collaboration with Federal and international 
partners, DHS recently announced Operational Sentinel, a counter-
network targeting operation aimed at holding accountable those with 
ties to TCO logistical operations.
    The intent of this joint effort is to disrupt the upstream and 
downstream logistical networks of TCOs that are directly and indirectly 
contributing to the surge of migrants at the Southwest Border. 
Operation Sentinel will leverage law enforcement expertise and 
authorities to identify TCO targets, their foreign and domestic 
associates, and assets to employ a series of targeted enforcement 
actions and sanctions against them. Such actions may include, but are 
not limited to, denying access to travel through the revocation of 
travel documents; the suspension and debarment of trade entities; and 
the freezing of bank accounts and other financial assets tied to TCO 
logistical networks.
                    central american minors program
    In close coordination with the Department of State, DHS has been 
working to reinstitute and strengthen the Central American Minors (CAM) 
program to reunite eligible children from El Salvador, Guatemala, and 
Honduras with parents who are lawfully present in the United States. 
This important program supports family unity and diminishes the need 
for many unaccompanied children to make the dangerous journey to the 
border.
    On March 10, 2021, the Department of State announced the phased 
reopening of this program. Interviews for phase 1, which involves the 
processing of previously filed applications, started on April 19. In 
phase 2, the program will begin to accept new applications.
    Before this program was terminated under the previous 
administration, approximately 5,000 children were reunited safely and 
securely with their families. The abrupt nature of the previous 
administration's termination of the program left many families in the 
middle of the process and unable to reunify, despite having taken 
initial efforts to do so. It will take time to rebuild the CAM program. 
DHS is committed to strengthening this program and providing children 
with the protections they need, along with a viable, safe, and legal 
alternative to the dangerous journey many have attempted to reach our 
Southwest Border.
                  increases in h-2b nonimmigrant visas
    On May 25, 2021, in accordance with the authority granted by 
Congress, DHS and the Department of Labor published a temporary final 
rule increasing the numerical limit, or cap, on H-2B nonimmigrant visas 
by up to 22,000 additional visas through the end of fiscal year 2021. 
Of these visas, 6,000 are reserved for nationals of Northern Triangle 
countries.
    This increase represents but 1 innovative approach to providing 
additional legal pathways to the United States for individuals in the 
region while simultaneously supporting the U.S. economy and businesses. 
By doing so, we have addressed the needs of U.S. employers who are at 
risk of irreparable economic harm due to a shortage of workers to fill 
temporary positions, while also establishing safeguards to ensure that 
U.S. workers are not adversely impacted. Once the temporary job has 
been completed, these H-2B nonimmigrant visa holders return to their 
home countries with wages to spend in support of struggling Northern 
Triangle economies, in addition to any remittances they may have been 
able to send while working in the United States.
                      migrant protection protocols
    On January 20, 2021, DHS announced it would suspend all new 
enrollments in the Migrant Protection Protocols (MPP) program. Under 
MPP, approximately 70,000 individuals were forced to return to Mexico 
while awaiting their immigration proceedings. On June 1, 2021, as 
directed by the President in Executive Order 14010, Secretary Mayorkas 
completed his review of MPP and terminated the program.
    As part of the administration's phased approach to restore safe and 
orderly processing at the Southwest Border, DHS began processing into 
the United States certain individuals who were enrolled in MPP to allow 
them to pursue their legal claims before the Department of Justice's 
Executive Office for Immigration Review. The Department worked closely 
with interagency and international organization partners as well as the 
government of Mexico. As a result of these efforts, DHS has safely and 
efficiently processed more than 11,600 individuals as of June 4 through 
6 ports of entry across the Southwest Border, allowing them the 
opportunity to pursue their immigration cases in the United States.
    The pandemic has underscored the importance of creating innovative 
procedures that prioritize the safety of those involved. Individuals 
who may be eligible for this process can register on-line from any 
location. Once registered, eligible individuals are contacted by 
international organizations and provided instructions for accessing 
designated staging locations, where they receive a health screening and 
are tested for COVID-19 prior to presentation at a designated port of 
entry. Those who test positive for COVID-19 are supported by 
facilitating organizations to isolate and/or seek treatment in line 
with the policy of the relevant local health authority in Mexico. 
Following isolation and screening, an individual will again be eligible 
for facilitated arrival at a designated port of entry.
    This innovative and efficient process to address certain 
individuals who were enrolled in MPP is a testament to our ability to 
process individuals into the United States in a way that is humane and 
efficient while still enforcing our immigration laws and maintaining 
border security and public health.
                          family reunification
    In the first weeks of the new administration, President Biden 
issued an Executive Order on the Establishment of Interagency Task 
Force on the Reunification of Families. The Task Force's mission is to 
correct the injustice of the prior administration's practice of 
separating children from their parents or legal guardians at the U.S.-
Mexico Border, including through its Zero-Tolerance Policy.
    To date, the Task Force has identified approximately 4,000 children 
who were victims of the Zero-Tolerance Policy and related initiatives. 
The Task Force is working to reunite such children with their separated 
parents or legal guardians.
                               conclusion
    President Biden and Secretary Mayorkas both have made clear that 
securing our border does not and should not come at the expense of 
fulfilling both our legal and humanitarian obligations. Addressing the 
needs of unaccompanied children and others in a safe, orderly, and 
efficient manner aligns with our National interest and our values as a 
Nation.
    Thank you. I look forward to answering your questions.

    Chairwoman Barragan. Thank you for your testimony.
    I am seeing that the Chairman of the full committee has 
returned. I am going to now recognize the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement before we resume witness testimony.
    Mr. Chairman, the floor is yours.
    Mr. Thompson. Thank you very much, Madam Chair. I apologize 
but I have 3 balls in the air at the same time so it is a 
little difficult. But also, I thank you for holding this 
hearing and your continued leadership on border security issues 
and for holding today's follow-up hearing on the challenges 
posed by unaccompanied children at the border.
    People, including unaccompanied children, have been 
arriving at our Southern Border for decades, under both 
Democratic and Republican administrations. I am grateful for 
the Biden administration's efforts to ensure that unaccompanied 
children are able to receive proper care and access to 
protections guaranteed under United States law. DHS, HHS, and 
other Federal agencies are working closely with local 
communities and nongovernmental organizations to provide 
temporary shelter, essential medical care, legal services, and 
COVID-19 testing for unaccompanied children.
    The Vice President and the State Department are also 
working with foreign governments, the private sector, and other 
organizations to bolster the capacity of our neighbors to 
provide youth and vulnerable populations with opportunity and 
protection at home. The administration is also restarting the 
Central American Minors Program to allow unaccompanied children 
to apply for protection in their home country. If they qualify, 
children will then be able to make a safe and orderly journey 
to the United States.
    All of these efforts are concrete steps that will not only 
help children who arrive at our border, but also address many 
of the push factors forcing children to make the dangerous 
journey. Border security remains a priority for this committee. 
We can secure our border and process people humanely and 
effectively, and I am grateful to Secretary Mayorkas and the 
Biden administration for leading us in that direction. Despite 
the claims of some of my colleagues, we do not need to return 
to the inhumane, cruel, and untimely ineffective policies of 
the Trump administration.
    As we all recall, in his first year in office, President 
Trump piloted, and later implemented, programs that separated 
thousands of children from their parents. This anti-immigrant 
trend continued with the Trump administration instituting 
policies, like the Migrant Protection Protocols, that failed to 
address the root causes of migration and left migrants 
languishing in camps in Mexico. In fact, we still have a long 
road ahead to repair the system decimated by the Trump 
administration.
    During the COVID-19 pandemic, the Trump administration 
ignored the warning signs of another migration influx and 
instead issued a so-called Public Health Order, also known as 
Title 42. Title 42 has resulted in thousands of migrants, 
including unaccompanied children and young families, being 
expelled from the United States without due process. Most were 
sent back to Mexico without any access to the asylum 
protections provided for under United States law. Many have 
tried to cross the border again and again, and the numbers we 
are seeing now are in large part due to this policy. The Biden 
administration rightly exempted unaccompanied children from 
this order. However, I remain concerned that Title 42 is still 
being implemented, particularly for families and other 
vulnerable populations.
    Recently the Department improved the process for providing 
vulnerable individuals with exceptions to the Title 42 policy. 
It is a step in the right direction, but the program is still 
very small. Last month, the New York Times published a 
whistleblower complaint detailing how families are sending 
their minor children across the border alone, increasing the 
number of unaccompanied children in Federal Government custody. 
I strongly urge the administration to review Title 42 and take 
action to ensure that families are not faced with this terrible 
choice.
    I am eager to hear from our Government witnesses today on 
ways the Biden administration is handling the challenge of 
unaccompanied children arriving at our Southern Border, as well 
as the long-term efforts being implemented and considered to 
address the root causes of migration. I am also interested to 
hear how we can better position the Federal Government to 
respond and manage future influxes.
    Thank you, Madam Chairman, and I appreciate your indulgence 
while I am multitasking today. Thank you much.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 10, 2021
    People, including unaccompanied children, have been arriving at or 
Southern Border for decades--under both Democratic and Republican 
administrations. I am grateful for the Biden administration's efforts 
to ensure that unaccompanied children are able to receive proper care 
and access to protections guaranteed under United States law. DHS, HHS, 
and other Federal agencies are working closely with local communities 
and non-Governmental organizations to provide temporary shelter, 
essential medical care, legal services, and COVID-19 testing for 
unaccompanied children.
    The Vice President and the State Department are also working with 
foreign governments, the private sector, and other organizations to 
bolster the capacity of our neighbors to provide youth and vulnerable 
populations with opportunity and protection at home. The administration 
is also restarting the Central American Minors Program to allow 
unaccompanied children to apply for protection in their home country. 
If they qualify, children will then be able to make a safe and orderly 
journey to the United States.
    All of these efforts are concrete steps that will not only help 
children who arrive at our border, but also address many of the push 
factors forcing children to make the dangerous journey. Border security 
remains a priority for this committee. We can secure our border and 
process people humanely and effectively, and I am grateful to Secretary 
Mayorkas and the Biden administration for leading us in that direction. 
Despite the claims of some of my colleagues, we do not need to return 
to the inhumane, cruel, and ultimately ineffective policies of the 
Trump administration.
    As we all recall, in his first year in office, President Trump 
piloted, and later implemented, programs that separated thousands of 
children from their parents. This anti-immigrant trend continued with 
the Trump administration instituting policies, like the Migrant 
Protection Protocols, that failed to address the root causes of 
migration and left migrants languishing in camps in Mexico. In fact, we 
still have a long road ahead to repair the system decimated by the 
Trump administration.
    During the COVID-19 pandemic, the Trump administration ignored the 
warning signs of another migration influx and instead issued a so-
called Public Health Order, also known as Title 42. Title 42 has 
resulted in thousands of migrants, including unaccompanied children and 
young families, being expelled from the United States without due 
process. Most were sent back to Mexico without any access to the asylum 
protections provided for under United States law. Many have tried to 
cross the border again and again, and the numbers we are seeing now are 
in large part due to this policy. The Biden administration rightly 
exempted unaccompanied children from this order. However, I remain 
concerned that Title 42 is still being implemented--particularly for 
families and other vulnerable populations.
    Recently the Department improved the process for providing 
vulnerable individuals with exceptions to the Title 42 policy. It's a 
step in the right direction, but the program is still very small. Last 
month, the New York Times published a whistleblower complaint detailing 
how families are sending their minor children across the border alone, 
increasing the number of unaccompanied children in Federal Government 
custody. I strongly urge the administration to review Title 42 and take 
action to ensure that families are not faced with this terrible choice.
    I am eager to hear from our Government witnesses today on ways the 
Biden administration is handling the challenge of unaccompanied 
children arriving at our Southern Border, as well as the long-term 
efforts being implemented and considered to address the root causes of 
migration. I am also interested to hear how we can better position the 
Federal Government to respond and manage future influxes.

    Chairwoman Barragan. Thank you, Mr. Chairman. A number of 
us are as well, so I appreciate that. Thank you.
    Now we will resume to witness testimony. I would like to 
recognize Mr. Huffman to summarize his statement for 5 minutes.

 STATEMENT OF BENJAMINE ``CARRY'' HUFFMAN, EXECUTIVE ASSISTANT 
  COMMISSIONER, ENTERPRISE SERVICES, U.S. CUSTOMS AND BORDER 
                           PROTECTION

    Mr. Huffman. Good afternoon, Chairwoman Barragan, Ranking 
Member Higgins, and distinguished Members of the subcommittee. 
Thank you for the opportunity to testify today on behalf of 
U.S. Customs and Border Protection. It is my honor to 
illustrate how CBP cares for unaccompanied children (UC) in our 
temporary custody. Our goal is to transfer, transport, release, 
repatriate individuals, especially UCs, as expeditiously as 
possible. The best thing we can do for these children is to 
advocate for them to be moved quickly into the long-term care 
of HHS. We are committed to balancing our border security 
mission with providing safe and humane conditions for those who 
are in our temporary custody.
    However, CBP facilities have always been intended for 
short-term, temporary holding, historically for single adults. 
Our legacy facilities were not designed for the increase of UCs 
arriving at our Southwest Border over the COVID-19 health and 
safety measures.
    Despite the challenges COVID-19 presents, we continue to 
advocate for the efficient processing and expeditious transfer 
of UCs to HHS. But we must have our interagency partners, like 
ICE and HHS at the table. Collaborating with our trusted 
partners and other lessons learned from past searches have led 
us to some of our greatest improvements in our response.
    This past March presented us with the highest number of UCs 
encountered along our Southwest Border to date. There were over 
18,700 UCs encountered in March alone. By late March, the 
number of UCs entering CBP custody had far exceeded HHS's 
capacity to provide timely placement in its facilities. With 
this increase, we collaborate with CBP and across the 
interagency on multiple lines of effort. Working closely with 
our interagency partners helps us expeditiously transfer UCs as 
these movements require multiple operational decisions, many of 
which are outside of CBP's domain.
    To streamline the transfers, the Movement Coordination Cell 
(MCC) was established at CBP Headquarters in late March. The 
MCC is a multiagency effort that mobilizes CBP, ICE, HHS, DOD, 
and FEMA resources to move UCs out of CBP custody and into 
HHS's care as fast as possible but within 72 hours. By 
establishing the MCC, we have been able to significantly reduce 
the number of UCs in CBP temporary custody and the time in 
custody to under 72 hours. In March, the average number of UCs 
in temporary CBP custody was over 4,000. Today, the average is 
under 700, but more importantly, the average time in custody 
went from 115 hours in March to just 20 hours today.
    We also learned from the 2019 surge that we needed to 
streamline the acquisition process so we could efficiently 
stand up new soft-sided facilities.
    We developed standardized contracts with tiered, scalable 
options to enable us to quickly meet our facility needs. Prior 
to this year, CBP awarded a blanket purchase agreement for 
soft-sided facilities which allowed us to swiftly stand up 6 
facilities in Arizona and Texas. Almost all of these facilities 
include indoor and outdoor play areas with games, toys, age-
appropriate food, and televisions for entertainment. We also 
contracted bilingual caregivers to provide personal care and 
basic hygiene for the children. To meet increased processing 
demands, CBP deployed our agents and officers from across the 
country to our Southwest Borders and DHS activated the 
volunteer force.
    We also prioritized medical support and have continued to 
expand the scope and scale of CBP's medical support services. 
CBP's contract medical personnel are trained, licensed, and 
credentialed to care for children. We are developing additional 
training for in-trauma-informed care for our front-line 
officers and agents.
    Children who are in our temporary custody receive health 
intake interviews and medical assessments that include trauma-
informed health considerations. These allow us to identify 
children's health issues that may require further attention. We 
constantly work to identify ways that we may further improve 
our medical support efforts. We continue to make improvements 
from past migration surges, and it is my personal belief that 
CBP advocates for the best possible care for the children who 
come into our temporary custody.
    We assess our performances, processes, and procedures for 
improvement and work to refine our whole-of-Government approach 
as trusted partners across the Federal agencies. I can attest 
to the empathy of the CBP work force. These men and women are 
dedicated not only to the mission but to ensuring children are 
cared for with compassion while they are in our temporary 
custody.
    I am proud to be here today to represent the men and women 
of CBP and thank you for the opportunity to be here today. I 
look forward to your questions.
    [The prepared statement of Mr. Huffman follows:]
           Prepared Statement of Benjamine ``Carry'' Huffman
                             June 10, 2021
    Chairwoman Barragan, Ranking Member Higgins, and Members of the 
subcommittee, it is my honor to appear before you today to testify 
about the care U.S. Customs and Border Protection (CBP) provides for 
unaccompanied children (UCs) in our temporary custody.
    I am proud to be here representing the men and women of CBP, who 
serve the American people 24 hours a day, 7 days a week. CBP is 
absolutely committed to balancing the need for border security, 
protecting U.S. economic interests, safeguarding the health of the 
American people and our workforce, and providing appropriate safety, 
security, and care for those in our temporary custody. Many of CBP's 
agents and officers are parents themselves, and I can assure you that, 
as compassionate human beings, they are committed to providing the best 
possible care for children who are temporarily in our custody.
    Part of CBP's mission is to enforce immigration laws, inspecting 
and processing those individuals who either present themselves at ports 
of entry (POEs) with or without appropriate travel documents or enter 
the United States without authorization between the POEs. Following 
such an encounter, CBP makes every effort to promptly process, 
transfer, transport, release, or repatriate individuals to minimize the 
amount of time spent in our temporary custody.
    CBP facilities have always been intended as temporary holding for 
individuals in our custody. As you are aware, CBP facilities were 
historically constructed with holding facilities designed for short-
term temporary custody of single adults. Our legacy facilities 
certainly were not designed for the social distancing as recommended 
for safety during the COVID-19 pandemic.
    Surges in migration are not new for CBP, yet each one we have faced 
in the past has its own unique set of challenges based on the changing 
demographics and the migration trends. CBP has built upon the knowledge 
and experience we gained from each of the migration surges we have 
encountered.
    Every surge we have faced has taught us a lot. We learned there was 
a need to be able to quickly expand our holding capacity through a 
standardized acquisition strategy. We learned to modify our operations 
to accommodate the special needs of children and to accommodate large 
numbers of children. Since then, we have established mechanisms for 
self-accountability, employing a proactive approach that prioritizes 
care for children in our temporary custody.
    We continue to expel most single adults and many families to their 
last country of transit or country of origin--primarily Mexico--under 
the Title 42 authority of the Centers for Disease Control and 
Prevention (CDC) Order Suspending the Right to Introduce Persons from 
Certain Countries Where a Quarantinable Communicable Disease Exists. 
However, UCs encountered in the United States are no longer being 
expelled. As quickly as possible, the Department of Homeland Security 
(DHS) transfers custody of UCs to the U.S. Department of Health and 
Human Services' (HHS) Office of Refugee Resettlement (ORR), as required 
under the Trafficking Victims Protection Reauthorization Act of 2008 
(TVPRA) and noncitizen single adults and families to U.S. Immigration 
and Customs Enforcement (ICE).
                               background
    COVID-19 has presented unique challenges to CBP's operations. 
Despite the restrictions CBP must adhere to under COVID-19 precautions, 
we continue to advocate for the swift and efficient processing of UCs 
in our temporary custody to ensure they transfer as quickly as possible 
into HHS care. However, in order for this system to work seamlessly, we 
rely on a trusted partnership with our interagency counterparts--like 
ICE and HHS--by having them at the table. This has been one of our 
greatest improvements in efficiency since the fiscal year 2019 
migration surge.
    Back then, the surge primarily consisted of large groups of 
families and UCs, and in fiscal year 2020, the flow of individuals 
arriving at our borders slowed in part due to the COVID-19 pandemic. 
However, we have seen a substantial rise again in fiscal year 2021 and, 
with it, an increase in UCs. U.S. Border Patrol (USBP) encounters along 
the Southwest Border this fiscal year have increased significantly over 
the total for fiscal year 2020; specifically, the number of UCs, to 
date, has increased over 110 percent. March saw a 102-percent increase 
over February 2021--with 18,733 total UCs in March alone.\1\ Fewer than 
11 percent of encounters in March were UCs, but by the end of March, 
UCs accounted for almost half of all people in CBP temporary custody. 
By the end March, the number of UCs entering USBP custody far exceeded 
ORR's capacity, precluding timely transfer in accordance with the 
provisions of the TVPRA, which requires DHS to transfer UCs to ORR care 
within 72 hours of determining that the child is a UC, unless there are 
exceptional circumstances. In conjunction with Federal Emergency 
Management Agency (FEMA), HHS began rapid expansion of ORR's housing 
and placement capacity through Emergency Intake Sites (EISs).
---------------------------------------------------------------------------
    \1\ CBP Announces March 2021 Operational Update, April 8, 2021, 
https://www.cbp.gov/newsroom/national-media-release/cbp-announces-
march-2021-operational-update (May 26, 2021).
---------------------------------------------------------------------------
    Thanks to the funding support provided by Congress through both the 
Coronavirus Response and Relief Supplemental Appropriations (CARES) 
Act, 2021 and our fiscal year 2021 enactment, CBP, to date, has been 
able to address emergent requirements at the Southwest Border. We have 
put the lessons learned in the past to good use in the current fiscal 
year. Through the use of standardized contracts and a blanket purchase 
agreement, we have vastly improved our capabilities for and 
efficiencies in standing up soft-sided facilities (SSFs) and have 
strongly augmented our medical capabilities to ensure appropriate 
medical care is available when needed. Congress also gave us the 
funding to establish new positions to be able to expand our ability to 
quickly process undocumented noncitizens arriving at the U.S. border.
The Flores Settlement Agreement
    The 1997 Flores Settlement Agreement established a National policy 
for the detention, release, and treatment of children in our temporary 
custody. Under this agreement, children must be held in safe and 
sanitary facilities, with access to toilets and sinks, drinking water 
and food, adequate temperature control and ventilation, and appropriate 
medical assistance. Children must be appropriately supervised and 
provided contact with family members with whom they were apprehended.
    Children require different types of care than do single adults. For 
example, children have different nutritional needs and require 
specialized medical care and screenings.
Juvenile Coordinator's Office
    In 2017, the court appointed the CBP chief accountability officer 
as the CBP juvenile coordinator (JC) to oversee CBP's compliance with 
the Flores Settlement Agreement. The JC collaborates with multiple 
components across CBP to monitor on-going compliance. He maintains 
situational awareness and tracks progress on critical and emerging 
issues related to children in our temporary custody.
    In 2019, the JC established the Juvenile Coordinator's Office (JCO) 
to assist him in monitoring and reporting on CBP's compliance with the 
Flores Settlement Agreement and related CBP policies. The JC and JCO 
conduct announced and unannounced site visits across the Southwest 
Border to assess CBP's custodial data, medical capabilities, contract 
services, and holding conditions, such as temperature and safe and 
sanitary conditions, and conduct interviews with children and/or their 
parent(s) who wish to be interviewed regarding their experience in CBP 
temporary custody. These reviews are conducted utilizing robust 
protocols based on criteria from the Flores Settlement Agreement and 
CBP policy. In addition, they deliver comprehensive reports that 
describe monitoring activities, provide CBP statistics on children in 
temporary CBP custody, and/or update the court as per the requirements 
of the court orders. Furthermore, the JC and JCO leverage the 
collective expertise of multiple CBP offices to provide actionable and 
operationally-informed recommendations to enhance our processes and 
policies.
                    fiscal year 2021 accomplishments
    In addition to what we have implemented as lessons learned from the 
fiscal year 2019 surge, we have put mechanisms in place that allow us 
to meet the challenges of a migration surge expeditiously and 
efficiently.
Soft-Sided Facilities
    To accommodate the growing numbers of families and children in 
temporary CBP custody this fiscal year, CBP rapidly mobilized 6 SSFs at 
4 locations: Yuma and Tucson, Arizona; and Eagle Pass and Donna, Texas. 
These SSFs have a typical capacity of up to 500 people each. They are 
air-conditioned and include mini pods (units) separated with clear 
vinyl to promote social distancing during the pandemic and to configure 
the space as needed to accommodate families and UCs. Designated intake 
and processing areas are separate from the general holding space. They 
include outdoor and indoor recreation and play areas with games, toys, 
and equipment, age-appropriate food, and televisions for entertainment. 
They are staffed by bilingual caregivers who provide personal care and 
basic hygiene. CBP also ensures there are dual-language signage and 
messaging for communications and directions.
    It should be noted that these facilities are currently operating at 
a 50-percent reduced capacity to accommodate the recommended COVID-19 
social-distancing precautions. To assist with SSF operations and 
processing, CBP deployed about 425 Border Patrol agents from across the 
Nation to provide additional support to Southwest Border sectors. 
Another 32 CBP officers were deployed to assist with processing in the 
SSFs in Del Rio, Texas, and Yuma and Tucson, Arizona. DHS activated the 
DHS Volunteer Force on March 8, 2021, giving CBP additional personnel 
to assist at the SSFs.
Acquisition Tools and Strategy
    Another area of improvement that was identified following the 
fiscal year 2019 surge is associated with our acquisition strategy for 
responses to rapid increases in migration. We developed a suite of 
acquisition tools to enable us to quickly meet our material solution 
needs. We created contracts with standardized scopes of work, tiered 
and scalable options, and available capacity across the Southwest 
Border, enabling us to be able to design, plan, deploy, operate, and 
maintain the SSFs we mobilized. Prior to 2021, CBP had awarded a 
blanket purchase agreement for SSFs and associated wrap-around 
services, which we used to quickly stand up SSFs in 4 of CBP's 
Southwest Border sectors during the current migration increase.
Advocating for Children in Our Temporary Custody
    CBP spearheaded the development of the interagency Movement 
Coordination Cell (MCC), bringing together colleagues from FEMA, ORR, 
ICE, and CBP, all of whom share a common operating picture that focuses 
on the rapid transfer of UCs to either HHS licensed facilities or HHS 
EISs. CBP has built a robust relationship with HHS to facilitate the 
on-going and rapid transfer of UCs into ORR care. This unprecedented 
interagency approach has successfully reduced the average time in 
custody (TIC) that UCs spend in CBP facilities, and reflects the 
progress made through the whole-of-Government approach that did not 
exist in prior migration surges.
    The MCC has worked diligently to greatly improve the situation on 
the Southwest Border and enhance CBP's operational mission capability. 
This interagency coordination has increased information and idea 
exchanges, and we have improved efficiency by connecting competencies 
across our various components. We co-locate key personnel from our 
respective agencies and outline clear roles and responsibilities for 
MCC members, while encouraging constant communication and 
collaboration. This approach enables the MCC, as a whole, to identify 
process deficiencies and mitigate bottlenecks to ensure UCs move as 
quickly as possible out of temporary CBP custody and into ORR care.
    In the month of April, the MCC developed initiatives to coordinate 
the movements of UCs and drive down the overall TIC for UCs in CBP 
temporary custody significantly to under 72 hours. From quickly working 
to coordinate the transfer of UCs to HHS care to standing up and 
executing targeted initiatives like the Top 15 TIC, which is aimed at 
focusing resources and efforts to move the UCs with the highest TIC out 
of CBP custody and into HHS care, each member of the MCC has played an 
important role in the collective achievements.
    Because this interagency cooperation and focus supported ORR in 
expanding its capacity, in May the average number of children in 
temporary CBP custody decreased to 640 from 4,109 in March. On the 
morning of June 8, the number of children in temporary CBP custody was 
575. In March, UCs spent an average of 115 hours in temporary CBP 
custody while in June so far they were held for an average of just 21 
hours.
    As mentioned earlier in this testimony, CBP could not have achieved 
any of this success without the trusted partnership and close 
coordination with our ICE and HHS counterparts. We depend on each 
other. I can personally attest that this is the first year we have felt 
that CBP is not alone in facing these challenges. While each agency has 
a unique and distinct role in the process, we have come together to 
coordinate and collaborate through a unified, collective approach.
Medical Support
    To ensure we could continue meeting the special medical needs of 
families and children in temporary CBP custody, but particularly in 
Border Patrol custody where the majority of UCs are held, we focused on 
medical support as a critical line of effort for surge response 
planning and coordination. For example, as we planned to stand up 
additional SSFs, we included critical medical support coverage 
planning, services, and screenings, with a particular focus on 
pediatric care. As we have done for several years prior to fiscal year 
2021, we have continued to expand the scope and scale of CBP medical 
support services.
    The CBP medical support construct was carefully crafted over 
several years with extensive internal and external subject-matter 
expert consultation and input to tailor it to CBP's unique mission and 
law enforcement role. Our medical construct relies on contract medical 
personnel for initial assessment, basic acute care, and referral to 
local health systems for complex, urgent, or emergent health care and 
urgent or emergent mental health care needs. We provide public health 
and infectious disease support--including COVID-19, and medical 
summaries upon transfer or release from temporary CBP custody. 
Currently CBP's medical contract allows for up to 800 medical 
personnel, with close to 300 personnel providing medical support along 
the Southwest Border on any given day at more than 70 facilities.
    Children brought into temporary CBP custody receive health intake 
interviews, including COVID-19 considerations and temperature checks, 
as well as medical assessments, including trauma-informed behavioral 
health considerations, to identify issues requiring further attention. 
Our contract medical providers are trained, licensed, and credentialed 
to care for children, and we have developed additional training for CBP 
medical providers regarding trauma-informed care and psychological 
triage/psychological first aid for children in our temporary custody.
    We continue to incorporate trauma-informed behavioral health care 
considerations into our medical support efforts. The CBP chief medical 
officer (CMO) has worked with the DHS CMO and the Flores medical 
monitor to review and assess CBP trauma-informed care efforts and 
identify additional enhancements. CBP contract medical providers are 
trained, licensed, and credentialed to identify trauma-informed 
behavioral health concerns in children in custody and conduct 
psychological triage, psychological first aid, coordinate referral for 
further care, and prioritize children for transfer out of CBP custody.
    CBP continues to refine and enhance its trauma-informed care 
efforts, in coordination with internal and external expert 
stakeholders, including the DHS CMO and the Flores medical monitor. The 
CBP approach is increasingly emphasizing 3 core elements: Awareness and 
training; trauma-informed medical support; and trauma-informed holding 
processes. CBP has implemented a layered approach to behavioral health 
support to ensure that no single point of failure exists. Agents and 
officers who identify urgent or emergent behavioral health issues refer 
or transfer children to local health systems as appropriate. CBP has 
added caregivers similar to daycare personnel at high-volume UC 
facilities to provide support to children in custody, CBP medical 
personnel conduct assessments, psychological triage, psychological 
first aid, and referral for behavioral health issues, and we have 
implemented the use of licensed, trained, and credentialed behavioral 
health advisors to provide expert consultation, reach-back, and 
behavioral health program support.
                               conclusion
    Much has changed in the way CBP cares for children in our temporary 
custody in recent years. In addition to the duties of safeguarding 
National security and facilitating lawful trade and travel, the men and 
women of CBP do their best to ensure children temporarily in our 
custody receive appropriate care. Implementing the lessons learned from 
the fiscal year 2019 migration surge and establishing process 
efficiencies and a trusted partnership with fellow Federal agencies has 
allowed CBP to embody the advocacy mentality each of our agents, 
officers, and interagency partners possesses to be able to streamline 
the processing of UCs in our temporary custody.
    We will continue to assess and reassess our performance, processes, 
and procedures to find areas where we can further improve. We have made 
great strides in moving UCs out of our temporary custody and into ORR 
care. We will continue to refine our whole-of-Government approach as 
trusted partners across Federal agencies.
    Based on my personal experiences over 36 years, I can attest to the 
humanity and compassion of the CBP workforce, and I can assure you, 
there is no shortage of kindness for those children, even if it is just 
a few moments of individual attention. I am extremely proud to be here 
today to represent the men and women of CBP.
    Thank you for the opportunity to testify. I look forward to your 
questions.

    Chairwoman Barragan. Well, thank you for your testimony.
    I would now like to recognize Ms. Dueholm to summarize her 
statement for 5 minutes.

    STATEMENT OF KATHERINE DUEHOLM, ACTING DEPUTY ASSISTANT 
 SECRETARY FOR WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ms. Dueholm. Thank you very much, Madam Chairwoman, Mr. 
Chairman, Ranking Member Katko, Ranking Member Higgins, 
distinguished Members of the subcommittee, and my fellow 
panelists. Thank you very much for the opportunity to be here 
with you today to talk about this important issue. I really 
welcome the opportunity to further discuss how we are managing 
unaccompanied children at the border.
    I believe we have a common goal here, and that is how to 
humanely manage migration while looking after the most 
vulnerable among us and that is the children of our region.
    I would like to use my testimony today to summarize for you 
the State Department's role in this process. You will have 
seen, of course, that we have had a lot of engagement in the 
region recently, including Vice President Harris's trip to 
Guatemala and Mexico. Last week, Secretary Blinken was in Costa 
Rica meeting with his counterparts from throughout the region 
and Mexico. Special Envoy Zuniga has made numerous trips to the 
region, and I had the opportunity to travel to Honduras and El 
Salvador just a few weeks ago where I spoke with officials, met 
with civil society, private sector, and others on the ground, 
and was able to observe some of our projects that were put in 
place to address some of these challenges.
    Today, we have a delegation meeting at the regional meeting 
of the Comprehensive Refugee Response Framework in Costa Rica 
where they are further exploring opportunities to work 
collaboratively to address these issues. Our engagements are 
driven by the Executive Order 14010, which calls for a holistic 
approach to this migration challenge. What that means is that 
not only are my colleagues on the panel working on immigration 
challenges, our policy and controls at the border, but that we 
also need to be looking at how to manage migration flows from 
throughout the region, as well as getting at the factors that 
are causing people to seek to make that dangerous journey to 
begin with.
    State Department is engaged in 2 strategies to address 
these challenges. The first that I would like to discuss is the 
comprehensive migration management strategy. There are 2 Ms 
there. We are working to collaboratively strengthen migration 
management throughout the region with our partners, and what 
that entails is focusing on fostering secure and humane order 
management, working to provide increased protection options, 
opening up opportunities for legal pathways for migration, and 
also providing reintegration and assistance to those who have 
been returned from our borders so that they do not seek to make 
that journey again. We are working collaboratively toward that 
end. We believe that those can make a real difference in 
addressing the migration flows.
    But what we really have to do to get at what is causing 
that is also to look at the root causes which is our second 
strategy, the root causes of migration strategy. In this 
strategy, we are taking a whole-of-Government approach. We are 
looking at a community-based, targeted, focused strategy to 
work with communities to address the things that are causing 
people to leave their homes to seek a better future.
    We have spoken with migrants, with would-be migrants, as 
well as with the communities in these countries to learn what 
is causing this migration flow. So we are going to be 
concentrating the root causes strategy on some of those key 
areas. That includes security concerns, lack of economic 
opportunity, safeguarding the rights of citizens and addressing 
corruption and governance challenges. I do want to underline 
that latter part because we recognize that addressing those 
challenges will be central to our ability to achieve success in 
any of the other areas. So we will continue to focus on 
corruption and transparency challenges as we move forward with 
both of these strategies.
    Congress is a key partner in this, and we look forward to 
working closely with you. I welcome the opportunity to work 
with you in the weeks and months ahead, and I look forward to 
your questions and comments. Thank you.
    [The prepared statement of Ms. Dueholm follows:]
                Prepared Statement of Katherine Dueholm
                             June 10, 2021
                              introduction
    Madam Chairwoman, Ranking Member, and Members of the House Homeland 
Security Subcommittee on Border Security, Facilitation, and 
Operations--thank you for inviting me here today. As the Acting Deputy 
Assistant Secretary for Mexico and Central America, I am honored to 
have this opportunity to speak with you on this important issue. 
Keeping Congress apprised of our efforts and working with you on how 
best to tackle the region's considerable challenges is a key part of my 
job. I look forward to discussing the State Department's work on the 
Root Causes Strategy and Collaborative Migration Management Strategy 
(CMMS) with you, particularly as they relate to the region's most 
vulnerable, its children.
    We are dedicated to achieving sustainable solutions to the region's 
irregular migration challenges and protecting its children, as 
reflected in the President's $4 billion, 4-year plan to address the 
root causes of irregular migration from Central America. Just this week 
the Vice President completed a trip to Guatemala and Mexico. Last week 
Secretary Blinken met with the region's foreign ministers in Costa 
Rica. Last month, I traveled to Honduras and El Salvador with senior 
officials from USAID to engage with government officials, civil society 
organizations, and human rights leaders. At every opportunity, we are 
conveying the commitment of the United States to strengthen 
collaborative efforts to manage migration throughout North and Central 
America and address the root causes driving irregular migration.
                         strategies background
    In order to deal with these long-standing challenges in Northern 
Central America, President Biden issued Executive Order 14010, 
directing the U.S. Government to prepare a Root Causes Strategy to 
identify and prioritize actions to address the underlying factors 
leading to irregular migration in, through, and from the region and a 
Collaborative Management Strategy to identify and prioritize actions to 
strengthen cooperative efforts to manage migration.
                              root causes
    The Root Causes Strategy will take a coordinated, place-based 
approach to mitigate the underlying causes that push Central Americans 
to migrate and ``take(s) into account, as appropriate, the views of 
bilateral, multilateral, and private-sector partners, as well as civil 
society.'' Our intent is that the Strategy lay out a framework to use 
the policy, resources, and diplomacy of the United States, as well as 
leverage the expertise and resources of a broad group of public and 
private stakeholders, to build hope for citizens in the region that the 
life they desire can be found at home, dissuading minors from 
undertaking the perilous journey and allowing parents to keep their 
children home.
    The Root Causes Strategy will focus on the most commonly-cited 
factors limiting progress in Central America, particularly those 
related to economic opportunity, human rights, governance and 
transparency, and crime and insecurity.
                                  cmms
    The CMMS is the first U.S. Government strategy to focus on 
strengthening cooperative efforts across North and Central America to 
humanely manage migration, and includes a focus on increasing access to 
protection, assisting and reintegrating returned persons, enhancing 
access to legal pathways for migration, and fostering secure and humane 
border management. We and our partners are already engaging on many of 
the lines of work in the CMMS, and this strategy will focus and expand 
this work around strategic objectives. The CMMS will also help guide 
U.S. diplomatic engagements with governments in the region and outside 
the Western Hemisphere, including through multilateral fora and 
platforms, such as the Regional Conference on Migration and the 
Comprehensive Regional Protections and Solutions Framework.
    Together, the CMMS and the Root Causes Strategy will guide our 
efforts to foster a more stable region; strengthen cooperative efforts 
to manage migration, provide protection, assistance, and legal pathways 
for those who choose to migrate or are forced to flee; and, ultimately, 
reduce irregular migration.
                      recent governance challenges
    As we seek to address these issues, we are confronting governance 
challenges in Central America, specifically in El Salvador, Guatemala, 
and Honduras. Democracy and good governance are central to the success 
of our efforts because corruption and poor governance have fueled the 
rise in irregular migration. Certain political actors in these 3 
countries have shown an increasing disregard for the rule of law, a 
fully independent judiciary, and efforts to stem endemic corruption. In 
April, some members of Guatemala's Congress manipulated the selection 
of its Constitutional Court in a non-transparent manner. Last month, 
Guatemalan authorities arrested several prominent former officials and 
anticorruption advocates critical of the government, including 2 
individuals who collaborated on a corruption investigation involving 
former President Otto Perez Molina. In El Salvador last month, 
President Nayib Bukele's Nuevas Ideas party ousted the magistrates of 
the Supreme Court's constitutional chamber and the Attorney General and 
used irregular means to fill those positions. In a positive 
development, Honduras just passed a long-awaited electoral reform bill 
in May, which we hope lays the groundwork for free and fair elections.
                               next steps
    As we approach the implementation phase of the strategies, we look 
forward to continuing consultations with Congress as a key stakeholder 
in managing migration and addressing the root causes of irregular 
migration and a partner in holding the region's governments accountable 
to their commitments.
    I'll conclude by reiterating that we understand the significance 
and difficulty of the challenges ahead, and I look forward to working 
with all of you on these issues and look forward to your questions.

    Chairwoman Barragan. Thank you, for your testimony.
    I now recognize Mr. Lechleitner to summarize his statement 
for 5 minutes.

STATEMENT OF PATRICK J. LECHLEITNER, ACTING EXECUTIVE ASSOCIATE 
 DIRECTOR, HOMELAND SECURITY INVESTIGATIONS, U.S. IMMIGRATION 
 AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Lechleitner. Chairwoman Barragan, Ranking Member 
Higgins, and distinguished Members of the subcommittee on 
Border Security Facilitation and Operations, thank you for the 
opportunity to appear before you today and discuss the efforts 
of Homeland Security Investigations to secure our homeland from 
transnational crime and threats and to elaborate on HSI's 
investigate role in preventing the smuggling and trafficking of 
people, including unaccompanied children into the United 
States.
    As the principal investigative arm of the Department of 
Homeland Security, our core mission is to protect the United 
States from transnational crime and threats. The crimes of 
smuggling and trafficking align with many of HSI's operational 
priorities and are a primary focus of HSI's investigations.
    Human smuggling involves providing a service, typically 
transportation, navigation, or fraudulent documents to 
facilitate an individual's unauthorized entry into a foreign 
country. Human smuggling organizations profit by charging fees 
for smuggling noncitizens into and throughout the United States 
and by collecting transit fees when smugglers and their clients 
travel through territory controlled by cartels or other TCOs. 
These criminal networks are almost exclusively driven by money, 
seeing humans as just another commodity to be moved across 
borders for profit.
    While human smuggling may constitute the initial crime 
facilitating the illicit movement of people, including minors 
to our borders, the criminality does not stop there. In some 
cases, migrants become victims of human or labor trafficking 
when criminal networks introduce force, fraud, or coercion into 
smuggling schemes to bring victims into forced labor or 
commercial sex.
    If the victim is under 18, sex trafficking occurs when the 
victim is induced to perform commercial sex. Force, fraud, or 
coercion is not required. To be clear, trafficking is a crime 
of exploitation. It does not require movement across a border.
    Additionally, HSI's investigations have determined that 
human smuggling often occurs alongside or can be a precursor to 
other transnational crimes such as gang activity, identity 
benefit fraud, money laundering, bulk cash smuggling, narcotics 
smuggling, arms trafficking, and terrorism and National 
security-related crime among others.
    The complex transnational nature of the crimes surrounding 
human smuggling requires a strong and layered investigative 
response which HSI implements on multiple fronts. This starts 
abroad where HSI has the largest international investigative 
presence within DHS comprised of 80 offices in over 50 
countries. HSI's special agents assigned to work with our 
foreign law enforcement counterparts to investigate and 
prosecute TCOs operating abroad while conducting capacity-
building efforts designed to enhance the capabilities of host 
country partners to prevent cross-border crime at the earliest 
point of the smuggling event. HSI's Transnational Criminal 
Investigative Units (TCIUs), the Biometric Identification 
Transnational Migration Alert Program (BITMAP), Operation 
CITADEL and the Extraterritorial Criminal Travel program (ECT) 
are key elements of HSI's international efforts designed to 
push our borders out and effectively identify and mitigate 
threats before they reach the United States.
    HSI's efforts continue at the border and within the 
hundreds of domestic field offices throughout the United States 
where HSI's special agents respond to and investigate potential 
human smuggling and trafficking crimes. These investigative 
leads come to us in a variety of ways, including border 
interdictions, referrals from local law enforcement partners, 
confidential informants and sources of information, tip line or 
social media reporting, community and public outreach, criminal 
analysis and information gleaning from existing operations. HSI 
develops and receives information and leads involving human 
smuggling and trafficking in the same way regardless of U.S. 
involvement. Upon receiving information into a potential 
violation, we use all of our authorities and expertise to 
pursue, investigate, and attack all aspects of organizations 
responsible. These efforts are supported by the HSI Victim 
Assistance Program which enables HSI to take a victim-centered 
approach to its investigations, working with all levels of 
government and NGO's to provide necessary services to 
identified victims. Additionally, the HSI-led DHS Center for 
Countering Human Trafficking is another important operational 
support element integrating the efforts of 16 DHS component 
agencies and offices to centralize and coordinate diverse 
functions, all in support of investigations, victim protection 
efforts, outreach, and training activities focused on 
combatting the scourge of human trafficking. Together, HSI's 
efforts to combat cross-border crime facilitates and enhances 
the application of our full range of authorities and enable us 
and our partners to maximize the disruptive effort against TCOs 
engaged in smuggling and trafficking. These efforts help secure 
our borders and uphold the National security and public safety 
of the United States.
    Thank you again for the opportunity to appear before you 
today and for your continued support of HSI and the critical 
investigative role it plays in investigating the TCOs that 
facilitate and profit from human smuggling, trafficking, and 
related crimes. I look forward to your questions.
    [The prepared statement of Mr. Lechleitner follows:]
              Prepared Statement of Patrick J. Lechleitner
                        Thursday, June 10, 2021
    Chairwoman Barragan, Ranking Member Higgins, and distinguished 
Members of the Subcommittee on Border Security, Facilitation, and 
Operations:
                              introduction
    Thank you for the opportunity to appear before you today to discuss 
U.S. Immigration and Customs Enforcement's (ICE) Homeland Security 
Investigations' (HSI) efforts to secure the homeland from transnational 
crime and threats and elaborate on HSI's investigative role in 
preventing the smuggling and trafficking of people, including 
unaccompanied children (UCs), into the United States. This statement 
will highlight our international efforts throughout Latin America, as 
well as our investigations and operations within the United States, 
that seek to mitigate human smuggling and trafficking, while addressing 
related crimes such as transnational gang activity.
                            the hsi mission
    In collaboration with strategic partners in the United States and 
abroad, HSI special agents gather evidence to identify and build 
criminal cases against transnational criminal organizations (TCOs), 
terrorist networks and facilitators, and other criminal elements that 
threaten the homeland. HSI works with prosecutors to indict and arrest 
violators, execute criminal search warrants, seize criminally-derived 
money and assets, and take other actions designed to disrupt and 
dismantle criminal organizations operating around the world.
    HSI's core mission is to protect the homeland from transnational 
crime and threats, and its operational priorities serve as the 
foundation of HSI's investigative and operational focus--combating 
financial crime, investigating cyber crime, preventing crimes of 
exploitation, ensuring public safety, upholding fairness in global 
trade, and protecting National security. The crimes associated with 
human smuggling and trafficking, including those involving UCs, involve 
many of these priorities and therefore constitute a primary focus of 
HSI's investigations.
                        the nature of the threat
    Human smuggling involves the provision of a service--typically 
transportation, navigation, or fraudulent documents--to facilitate an 
individual's unauthorized entry into a foreign country. Over the last 5 
years, nationals of El Salvador, Honduras, and Guatemala (referred to 
as the Northern Triangle countries), and Mexico, who migrate due to 
violence, poverty, limited economic opportunity, amongst other reasons, 
have comprised the majority of undocumented noncitizens encountered 
without authorization along the Southwest Border.
    Extremely harsh terrains and travel conditions, combined with the 
potential detection by law enforcement and the threat of violence posed 
by cartels controlling territory along smuggling routes across Central 
America and Mexico, make it difficult for migrants to travel from their 
home countries and reach our borders without the assistance of 
smugglers. Criminal organizations step in and to facilitate the illegal 
smuggling of these noncitizens across our borders. U.S.-bound human 
smuggling and related criminal activities are estimated by the Homeland 
Security Operational Analysis Center to produce revenues of $2 billion 
to $6 billion per year.
    Human smuggling organizations profit by charging fees for smuggling 
undocumented noncitizens into and throughout the United States and by 
collecting transit fees when smugglers and their clients travel through 
territory controlled by cartels or other TCOs. These groups are almost 
exclusively financially driven and see humans as just another commodity 
to be moved across borders. Human smuggling enterprises and cartels 
often maintain a symbiotic relationship, both with cartels controlling 
the major U.S. and foreign drug markets, while smuggling networks 
control the smuggling flow, otherwise known as ``illicit pathways.'' 
Cartels or other TCOs have traditionally charged a ``plaza'' or tariff 
on migrants and human smuggling organizations to transit through their 
territory or operate in certain border towns. However, since mid-2019, 
some have taken a more active approach in human smuggling, increasing 
and diversifying sources of income with an activity they view as low-
risk.
    While human smuggling may constitute the initial crime facilitating 
the illicit movement of people, including UCs, to our borders, the 
criminality does not stop there. In some cases, migrants become victims 
of human or labor trafficking--a crime of exploitation that does not 
require movement--when criminal networks introduce force, fraud, or 
coercion into smuggling schemes to induce victims into forced labor or 
commercial sex. If the victim is under age 18, sex trafficking occurs 
when the victim is induced to perform commercial sex--force, fraud, or 
coercion is not required. For example, in May, HSI identified and 
rescued a victim who was forced into labor after entering the United 
States. The victim entered the United States as a UC and was 
subsequently forced to work and live in substandard conditions, with 
minimal remuneration.
    HSI's investigations have also demonstrated that human smuggling 
often occurs alongside or can be a precursor to other transnational 
crimes such as gang activity, identity and benefit fraud, money 
laundering, bulk cash smuggling, narcotics smuggling, arms trafficking, 
and terrorism and other National security-related crime.
                            the hsi response
    The multi-faceted, complex, transnational nature of the crimes 
surrounding human smuggling requires an equally robust and layered 
investigative response, which HSI implements on multiple fronts. This 
starts abroad, where HSI has the largest international investigative 
presence in the Department of Homeland Security (DHS), comprised of 80 
offices in over 50 countries with 41 visa security screening posts. 
This approach continues domestically, where HSI special agents and 
criminal analysts assigned to over 220 offices across the United States 
respond to and pursue investigations into illicit smuggling and 
trafficking. Both at home and abroad, HSI special agents utilize a 
broad range of legal authorities to identify, investigate, disrupt, and 
ultimately dismantle domestic and transnational criminal organizations 
engaged in human smuggling and human trafficking. With finite 
resources, HSI must employ a whole-of-Government approach to combating 
this threat. This strategy includes capacity building with host country 
partners overseas; leveraging domestic and international relationships; 
providing resources and technologies to create efficiencies of scale; 
and cross-pollinating expertise and leadership to other Federal, State, 
local, and international law enforcement partners. Together, this 
approach facilitates and enhances the application of HSI's full range 
of authorities and enables HSI and its partners to maximize their 
disruptive effect against TCOs engaged in smuggling and trafficking.
International Operations
    In 2011, HSI established the Transnational Criminal Investigative 
Unit (TCIU) Program to act as a force multiplier in the fight against 
TCOs. HSI TCIUs are comprised of foreign law enforcement officials, 
customs officers, immigration officers, and prosecutors who undergo a 
strict vetting process. Upon completion of vetting, candidates must 
complete a 3-week International Task-force Agent Training course. HSI 
TCIUs facilitate information exchange and rapid bilateral 
investigations involving violations that HSI has the authority to 
investigate, including weapons trafficking and counter-proliferation, 
money laundering and bulk cash smuggling, human smuggling and 
trafficking, narcotics smuggling, transnational gang activity, child 
exploitation, and cyber crime. TCIUs enhance the host country's ability 
to investigate and prosecute individuals involved in transnational 
criminal activity that threatens the stability and security of the 
region and ultimately our homeland security. More than 430 vetted and 
trained foreign law enforcement officers comprise the 11 TCIUs and 2 
International Task Force units. HSI special agents are uniquely 
positioned to partner with TCIU personnel to provide critical 
intelligence and resources to allow our partners to take appropriate 
enforcement action under the authority of the host country.
    HSI's Operation CITADEL aims to identify, disrupt, and dismantle 
TCOs and terrorist support networks by targeting the mechanisms used to 
move migrants, illicit funds, and contraband throughout South and 
Central America. CITADEL provides resources to enhance foreign 
partners' investigative, intelligence, and information-sharing 
capabilities to counter transnational threats and organized crime. This 
assistance, in turn, provides HSI the ability to expand domestic and 
international investigations well beyond U.S. borders and to more 
effectively target the illicit pathways exploited by TCOs. CITADEL 
facilitates training and capacity-building through cross-border 
operations with partner nation TCIUs, undercover operations, 
judicially-approved wire intercepts, and document and media 
exploitation at ports of entry and along smuggling routes. 
Investigative activities also include sensitive site exploitation/
evidence collection and biometric collection of extraterritorial 
criminal travel (ECT) subjects of special interest.
    HSI's ECT program is a partnership between HSI and the U.S. 
Department of Justice's Criminal Division, Human Rights and Special 
Prosecutions Section. ECT supports the National strategy to combat 
terrorism and international organized crime. The program uses expert 
dedicated investigative, prosecutorial, and intelligence resources to 
target and aggressively pursue, disrupt, and dismantle foreign-based 
transnational human smuggling networks. ECT supports the highest 
priority human smuggling investigations posing the greatest National 
security and public safety threats. These include investigations 
concerning special interest noncitizens and investigations that pose a 
significant humanitarian concern, to include maritime smuggling events, 
extortion, kidnapping, and corruption, among others.
    Pushing our borders out to effectively identify and mitigate 
threats before they reach the United States remains a priority for DHS, 
HSI, and our counterparts. A tool in this fight is the Biometric 
Identification Transnational Migration Alert Program (BITMAP). HSI 
trains and equips TCIUs and other cooperating foreign law enforcement 
officers to collect and share biometric and biographic data on suspects 
of particular interest, such as third-country nationals who are 
encountered by foreign law enforcement agencies at or along irregular 
border-crossing check points, illicit pathways, airports, seaports, 
jails, detention centers, and specialized mobile units. Foreign law 
enforcement partners share their collected BITMAP information with HSI, 
and this biometric data is used to populate United States databases and 
subsequently identify transnational criminals; known or suspected 
terrorists; gang members; and other persons of interest. BITMAP 
information is also used to provide host nation law enforcement 
partners with actionable intelligence related to terrorist, criminal, 
and National security threats. Additionally, information shared by 
foreign partners through BITMAP supports Homeland Security Presidential 
Directives 24 and 6 directions related to biometric collection and 
information integration. The program also aligns with United Nations 
Security Council Resolution 2396.
Domestic Operations
    To complement its international focus, HSI's efforts continue at 
the border and within our field offices throughout the United States, 
where HSI special agents respond to and investigate human smuggling 
schemes that are encountered or identified in the United States. These 
leads come to us in a variety of ways, including border interdictions; 
referrals from Federal, State, and local law enforcement partners; 
confidential informants and sources of information; tip line or social 
media reporting; community relations and public affairs outreach; 
criminal analysis/targeting; and information gleaned from existing 
operations. HSI develops and receives information and leads involving 
human smuggling in the same way whether or not the offense includes or 
involves UCs.
    Upon receiving information into a potential smuggling crime, HSI 
utilizes the full breadth of its authorities and expertise to pursue 
the investigation and attack all aspects of the organizations 
responsible. HSI prioritizes its investigations based on National 
security threats, the involvement of TCOs in the smuggling or 
trafficking scheme, and the public safety and endangerment aspects of 
the violation.
    HSI's approach to human smuggling investigations can be illustrated 
through on-going investigative efforts by HSI. In late 2020, HSI 
identified a large-scale, international human smuggling organization 
consisting of a network of local load drivers, tractor-trailer drivers, 
stash houses, and money couriers. Through partnership and coordination 
with the USBP and other law enforcement partners, HSI has conducted 12 
smuggling interdiction operations, resulting in over 350 undocumented 
individual apprehensions and the criminal arrest of multiple smuggling 
facilitators. The smuggling events were linked to a common organization 
through a combination of investigative techniques, including 
surveillance, interviews, confidential source information, and criminal 
intelligence analysis. A total of 18 minor children, 7 of whom were 
unaccompanied, have been encountered on various dates throughout the 
enforcement operations conducted in this case.
    To date, the HSI investigation has led to the identification of 
multiple members of the smuggling organization, stash houses, load 
drivers, and most recently the regional head of the smuggling network. 
HSI and its partners continue to develop information from various 
sources, including financial analysis, interviews, and surveillance, in 
an effort to expand the network, to focus on the command-and-control 
structure, foreign and domestic.
    HSI special agents employ similar investigative strategies and 
techniques every day across the United States, in the on-going fight to 
identify and disrupt the TCOs responsible for smuggling undocumented 
noncitizens. While some of the smuggling events or organizations under 
investigation by HSI may involve UCs, the techniques and tactics 
utilized by HSI to disrupt and dismantle these organizations remain the 
same, irrespective of whether UCs are involved or not. In fiscal year 
2020, HSI initiated 2,461 human smuggling investigations, conducted 
3,712 criminal arrests, secured 1,592 indictments and 1,538 convictions 
for human smuggling offenses.
    While human smuggling is often tied to human trafficking, they are, 
in fact, 2 distinct crimes that HSI investigates. Human trafficking 
does not require crossing a border. Human trafficking victims have been 
exploited by their trafficker for commercial sex acts or forced labor. 
Human trafficking victims can be any age, race, gender, nationality, or 
immigration status. By contrast, human smugglers engage in the crime of 
bringing people into the United States, or unlawfully transporting and 
harboring people already in the United States, in deliberate evasion of 
immigration law. As referenced earlier, however, human smuggling 
situations may transition to human trafficking when the elements of 
force, fraud, or coercion are introduced into the smuggling event, or 
when a victim under age 18 is induced to perform commercial sex.
    One of the most difficult challenges facing law enforcement 
officers is distinguishing between the incidents of human trafficking 
and human smuggling. Parts of the modus operandi of trafficking and 
smuggling are very similar--which makes it harder for law enforcement 
officers to separate the 2 types of crime. It is very difficult to 
detect trafficking in transit and at border points; in many cases, it 
may not be possible to distinguish between trafficking and smuggling 
until the transportation phase has ended and the exploitation phase has 
begun. Prior to this, there may be little noticeable difference between 
a group of trafficked persons and a group of smuggled migrants; in 
fact, one ``shipment'' of individuals could include persons destined 
for exploitation (trafficking victims) and persons who are being moved 
from one country to another for financial or material benefit (smuggled 
migrants).
    When UCs are encountered, it is exceedingly difficult to determine 
if the child is being exploited or destined to be a forced labor or sex 
trafficking victim because normally, the crime has not yet occurred, 
and the UC would not know that forced labor or sex trafficking awaits 
them. In some cases, the victimization may have begun in one country 
and then continues in the United States but only once it occurs in the 
United States does it fall under HSI's jurisdiction. Additionally, most 
foreign national human trafficking victims enter the United States on a 
visa, via various official ports of entry, as opposed to presenting at 
the Southwest Border. However, when UCs are encountered along the 
Southwest Border, typically U.S. Customs and Border Protection and the 
Department of Health and Human Services' Office of Refugee Resettlement 
are the U.S. agencies involved in identifying victims. There is no data 
that suggests UCs crossing the Southwest Border are any more vulnerable 
to human trafficking than they are to other forms of exploitation and 
crime. It should be noted that HSI maintains a robust Victim Assistance 
Program, poised to work with all levels of government and NGO's to 
provide necessary services to identified victims. Further, The HSI-led 
Center for Countering Human Trafficking (CCHT) integrates the efforts 
of 16 DHS component agencies and offices and establishes an 
organizational mechanism to harmonize, leverage, centralize and 
coordinate diverse functions to support Federal criminal and civil 
investigations, victim protection efforts, intelligence analysis, and 
outreach and training activities to combat human trafficking.
    If there is a U.S. nexus, HSI special agents are charged with 
conducting criminal investigations into the TCOs responsible for the 
trafficking. Similar to HSI's human smuggling cases, human trafficking 
leads come from a variety of sources, including partner agencies, and 
HSI utilizes multiple investigative techniques to pursue the case and 
hold offenders responsible. HSI's human trafficking investigations are 
conducted by investigative groups in each of HSI's Special Agent in 
Charge field offices, many of whom have agents that participate in 
almost 90 human trafficking task forces Nation-wide consisting of 
Federal, State, and local law enforcement, as well as victim service 
providers. These investigations have a two-fold mission. First, to 
proactively identify, disrupt, and dismantle domestic and transnational 
human trafficking organizations and minimize the risk they pose to 
National security and public safety. Second, to employ a victim-
centered approach, whereby equal value is placed on the identification, 
rescue, and stabilization of victims as well as the investigation and 
prosecution of traffickers. In fiscal year 2020, HSI initiated 947 
human trafficking cases, reported 1,746 criminal arrests, 400 
convictions, and identified and assisted 418 victims of human 
trafficking.
    Another aspect of HSI's efforts to investigate crimes affiliated 
with human smuggling involves transnational gangs and investigations 
into their members and operations in the United States. HSI's National 
Gang Unit (NGU) has not observed specific gang recruitment, membership, 
or affiliation associated with the recent surge in UC encounters along 
the Southwest Border. However, with any increase in unauthorized 
migration from the Northern Triangle, it is possible that transnational 
gangs such as La Mara Salvatrucha (MS-13) or 18th Street could 
capitalize on any vulnerabilities in the process.
    To mitigate any future or potential risks, HSI and partners 
continue to focus efforts on the command-and-control structure of MS-13 
and 18th Street, conducting large-scale, complex, proactive domestic 
and international investigations. These investigations, worked in 
collaboration with State, local, Federal, and international 
counterparts serve a strong deterrent effect to those that may seek to 
exploit our Nation's laws. Further, enhanced training of foreign and 
domestic counterparts, as well as integrating foreign vetted-unit 
police officers in select HSI field offices serves to cross-pollinate 
expertise across a broad programmatic spectrum. This integration of 
efforts will aid in increased cooperation and unity of effort across 
all levels of government, domestic and abroad.
                               conclusion
    Thank you again for the opportunity to appear before you today and 
for your continued support of HSI and the critical investigative role 
it plays in investigating the TCOs that facilitate and profit from 
human smuggling and related cross-border crimes. HSI remains committed 
to its mission to secure the homeland from transnational crime and 
threats and to uphold the National security and public safety of the 
United States. I look forward to our questions.

    Chairwoman Barragan. Thank you.
    I want to thank the witnesses for their testimony. I will 
remind the subcommittee that we will each have 5 minutes to 
question the panel. I will now recognize myself for 5 minutes.
    Yesterday, CBP released its operational update for May 2021 
which showed a record number of encounters at the Southern 
Border.
    Mr. Shahoulian, can you put this number into perspective 
and describe who is presenting at the border and the trends 
that DHS is observing?
    Mr. Shahoulian. Sure. Thank you for the question. I would 
be happy to, Chairwoman.
    So we are seeing very high numbers of encounters, as you 
indicated. We saw 180,000 in May. We are seeing that it is 
marginally led by single adults and that there is a high level 
of repeating counties amongst single adults and what we are 
seeing is that basically half of the encounters that we are 
seeing, of total encounters, are unique encounters. So there is 
essentially a 50 percent repeat encounter for single adults.
    What we have seen in May is that the trend for decreased 
numbers of unaccompanied children and families did continue. So 
we are seeing a continued downward trend in those numbers. So I 
think what we can say is that although the numbers, again, I 
think just that we are going to compare these numbers, and I 
know to, for example, prior surges like the surge in 2019, 
although we have, again, higher numbers of total encounters, 
the number of unique encounters is lower.
    Chairwoman Barragan. OK. Thank you so much for that.
    Mr. Huffman, over the last few months, CBP has worked to 
quickly build its capacity to handle unaccompanied children. 
This includes standing up multiple soft-sided facilities, 
deploying volunteers to help with processing, and expanding 
child care services contracts. What additional efforts is CBP 
undertaking to support the care and custody of unaccompanied 
children they encounter?
    Mr. Huffman. Thank you for that question. I appreciate the 
opportunity to address that because it has been from my 
perspective and my years of experience, this has kind-of been a 
big success for us because we have had to deal with surges of 
unaccompanied children before and it has not been as successful 
at moving them out of our custody.
    I think what is important to understand is that how we 
manage unaccompanied children is a whole-of-Government effort. 
It is not just CBP's challenge; it is HHS's challenge and those 
who help as well. So the thing that we did differently this 
time was when we stood up--we applied more of a whole-of-
Government approach this time that when we stood up the MCC and 
we got FEMA in the room, we got HHS in the room, and us in the 
room, and ICE in the room, we were able to come up with better 
solutions to move these folks out. We did several things. We 
had to move large volumes of people. FEMA assisted them in 
setting up to build their capacity. But you build capacity 2 
ways. You build capacity by increasing your real estate and you 
build capacity by increasing your efficiencies. So we tapped it 
both ways. We were able to stand up capacity to move large 
groups of kids out, but at the same time we fine-tune our 
efficiencies so we could focus on folks that were difficult to 
move. We started an initiative where every day we would 
[inaudible]. We would start with the top 15 children in our 
custody that have been there the longest and personalize each 
one of those children until we could get them moved out. Find 
out what unique problems we were having getting them into HHS 
custody and we did that. We did it by developing what we call 
an advocacy mentality for each child in our custody and driving 
those numbers down to move them out. So I think the best thing 
we did in addition to the medical services you mentioned, the 
food and the care and those things, was to get out a process to 
get them out of our custody as fast as possible and into the 
hands of child care professionals at HHS. I still think and so 
to this day that is the best thing we can do is maximize our 
process and our efficiencies to move them onto those who are 
truly trying to deal with them.
    Apart from that fact, we did increase our capabilities with 
caregivers, medical contracts, medical services, and all those 
things across.
    Chairwoman Barragan. Thank you. Thank you, sir.
    Ms. Dueholm, to address the challenge at our Southern 
Border, the Biden administration instituted a whole-of-
Government and whole-of-community effort. It brought in 
hundreds of Federal Government volunteers according with local 
government and organizations to help provide care for migrants. 
Similarly, a global approach will be needed to address the root 
causes of migration.
    Please describe what outreach the Biden administration has 
done to other foreign governments or international 
organizations to help address the root causes of migration.
    Maybe you can touch a little bit on how the efforts have 
been impacted by the pandemic.
    Ms. Dueholm. Sure. Thank you very much, Madam Chair.
    We have been doing a great deal of outreach to the 
governments in the region. I mentioned earlier some in-person 
visits that we have had, but we also, of course, have our 
embassies in the region continuously engaging with our partners 
out in the region. We also engage very regularly through our 
missions with communities, and we have undertaken as part of 
the root causes strategy a very deliberate process of outreach 
to the communities. One thing that is kind-of interesting about 
the pandemic is in some ways, while it is difficult to bring 
people together in person, I have had the opportunity, for 
instance, to speak with groups in the countries, both youth 
groups and faith groups and civil society groups via the 
miracle of virtual meetings. So we have conducted a number of 
those sorts of meetings, as well as with civil society here in 
the United States.
    From the State Department, just as part of this root causes 
strategy, we have consulted over 35 different civil society 
organizations and some of those are umbrella groups that 
include dozens of different civil society groups. So, we really 
are focused on getting as broad a range as possible of 
consultations to best understand the challenges that are 
driving this and the solutions that can present themselves.
    Chairwoman Barragan. Thank you so much. I apologize; my 
time has expired. I am looking forward to hearing more from 
your testimony with other questions from the other panelists.
    I now would like to recognize the Ranking Member of the 
subcommittee, the gentleman from Louisiana, Mr. Higgins, for 
questions.
    Mr. Higgins. Thank you, Madam Chair. Again, I thank our 
witnesses for being here today.
    Madam Chair, obviously, a massive increase in illegal 
border crossings is going to include a massive increase of 
unaccompanied children illegally crossing the border. This 
should not be a surprise. We are dealing with historically high 
illegal crossings at our Southern Border. It is a simple fact 
that we have to get our head wrapped around here. My numbers, 
my research has us at about 1.1 million illegal crossings. The 
official numbers are less, around three-quarters of a million. 
My numbers include law enforcement, boots on the ground, 
estimates of getaways. It is from a very reasonable 
perspective. We are dealing with over a million illegal 
crossings. We are trending to have 2 million illegal crossings 
this year. We cannot allow this to happen. We will lose the 
sovereignty of our Nation. It is our duty, our sworn oath and 
responsibility as Congressional representatives in the People's 
House for the United States of America to serve the American 
citizen and to protect the sovereignty of our country. We must 
just take an objective viewpoint of this. It is very clear what 
is happening. I mean, what changed? What changed since last 
year and the year before? Why we had historic highs is 
obviously because of policies. You know, what happened? January 
20 happened and then Executive Orders happened. So we are 
dealing with the results of that and we have got to force 
action out of our Executive. We cannot just cover for them with 
scripted speeches. We must force action.
    Mr. Shahoulian, I hope I quoted you correct, sir. You said, 
I took in my notes that you said that, ``There are complicated 
causes, various and complicated causes for the illegal surge of 
immigrants we are facing at historic levels at our Southern 
Border. I mean, what do you mean by that? We had the same 1,954 
miles of Southern Border that we had under President Trump. We 
had the same agents on the ground. The same sectors of command-
and-control across SSR Southern Border. We have got the same 
boots on the ground. What has changed? In your opinion, why are 
we facing historic highs here?
    Most Americans get it that it is because we had a change in 
the Executive. Can you not just admit that and let's look at 
policies of the previous administration and try to fix this 
thing? I will give you the floor, good sir.
    Mr. Shahoulian. Thank you, sir. Thank you for the question.
    I am just going to start off by saying that I respectfully 
disagree. Again, the causes of migration surges which every 
administration from the Bush administration, the Clinton 
administration, the Trump administration, the Biden 
administration have all experienced. The causes of those surges 
generally are primarily based on push-back. There are people 
that are fleeing deteriorating conditions. Given COVID, the 
deteriorating conditions in the sending countries have gotten 
worse.
    Mr. Higgins. You would not think the surge would have 
anything to do with the invitation from the President of the 
United States? Come on, man.
    Mr. Shahoulian. I will point out----
    Mr. Higgins. Get away from the talking points. Give 
American an answer.
    Mr. Shahoulian. I am going to give you one. In May 2019, we 
saw higher numbers of encounters. In fact, more unique 
encounters than we are seeing now. That was after 2 years of 
Trump administration policies. Was that because of the Trump 
administration policy? We are seeing decreased levels of 
unaccompanied minors and families----
    Mr. Higgins. No, we gradually got it under control. We 
gradually got it under control over the course of 4 years 
working with President Trump. We had everything under control. 
We are facing historical levels of crossings. That is the 
simple fact. It has never been this high. America is looking 
for answers.
    Madam Chair, I cannot see the clock but I suspect that my 
time has expired.
    Chairwoman Barragan. Thirty-seven seconds, sir. Thirty-
seven seconds.
    Mr. Higgins. OK. I am going to give my remaining time, in 
the interest of solidarity, with the President's administration 
and his senior staff, I give the floor back to Mr. Shahoulian. 
You have my remaining 20 seconds, sir.
    Mr. Shahoulian. I will just say that the empirical evidence 
is that people are fleeing deteriorating conditions. Until we 
address those and we provide alternative pathways, I mean, I 
will say that I am a son of a Cuban refugee. I grew up in 
Miami. As a child, when I was 9 years old, I remember the 
Mariel boat lift and that the city of Miami had 10 cities all 
around with Cuban refugees. Then we experienced an issue with 
Cubans taking to the high seas and risking their lives and lots 
of death at the high seas. The way that we addressed that was 
not just by clamping down. What we did was we entered the 
Migration Accords in the 1990's where we provided 20,000 legal 
admissions a year. It was by creating a lawful pathway that 
Cubans who were seeking freedom could invest their hopes. We 
were able to bring down the number of people who sought to 
regularly cross through the Florida straits. So we need a 
comprehensive strategy that does look at various different 
avenues. That is what we are attempting to do now. Thank you, 
sir.
    Mr. Higgins. Thank you, Mr. Shahoulian. God bless you, sir. 
Let's talk more.
    Madam Chair, I yield.
    Mr. Higgins. Thank you for those questions and that 
testimony.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses. As previously outlined, I 
will recognize Members in order of seniority, alternating 
between the Majority and Minority. Members are reminded to 
unmute themselves when recognized for questions.
    The Chair recognizes for 5 minutes the gentleman from 
California, Mr. Correa.
    Mr. Correa. Thank you very much, Madam Chair, for holding 
this most important hearing. I, like all of us in this 
committee, my heart goes out to those unaccompanied children. 
As a father, I pray for those children, and like many of you, I 
was in El Paso, Texas, looking at those children. I had the 
opportunity to meet Una and Garilias, a 2-year-old and a 5-
year-old sisters that were thrown by smugglers over the 10-foot 
wall. If it were not for those border officers that were alert, 
they were able to see those children, not in a desert, they 
would have perished.
    I also had the opportunity to go to Tijuana to see and 
interview a lot of the deported families under Section 42. This 
is an interesting challenge. It is a challenge that I agree 
with my colleagues. Nothing has changed in a long time. I would 
say for the last 40 years this has been an issue. I have been 
going to visit refugee children probably for the last 15 years. 
So my question as an American and as a Congress Member trying 
to address public policy here long term, how do you fix the 
push factors? I agree, when you have 2 hurricanes, one in a 
lifetime situations happening one after another, when you have 
COVID-19, you go hungry. When you have corruption, you cannot 
figure out how to run these economies efficiently.
    So Mr. Shahoulian, if I can ask you a couple of questions. 
Recently, Vice President Harris announced that the United 
States would provide $310 million of increased assistance to 
the Northern Triangle. She announced that she would be working 
with 12 companies and organizations to invest these American 
dollars, Guatemala, Honduras, and El Salvador.
    My concern is we have been doing this for 40 years. What is 
it that we can do to assure that this money does not end up in 
a Swiss bank account? What do we do to make sure that it is not 
spent on overhead, on bureaucracy? What do we do to make sure 
that this money is invested where it needs go to? Thank you.
    Mr. Shahoulian. I appreciate the question, Congressman. I 
would hope, if I could, to defer to my State Department 
colleague, Deputy Assistant Secretary Dueholm, who I think, I 
mean, they are leading on these efforts along with USAID if 
that is OK.
    Mr. Correa. Ms. Dueholm. Yes, Ms. Dueholm.
    Ms. Dueholm. Yes. Thank you very much, Congressman.
    Certainly, we agree with you that this is an incredibly 
important question as we go forward, and we are very focused on 
being responsible stewards of the taxpayers' money. We very 
much want to make sure that the money that is allocated to 
these ends achieve the goals. So for that purpose we have very 
strict end-use monitoring in place. We also are looking at 
having someone directly from the OIG appointed for USAID to be 
monitoring those spending related to the Northern Triangle. We 
work very closely with those in the field through our embassies 
and missions, through USAID, to monitor all of the spending, 
and we work very closely to try and achieve the best possible 
results----
    Mr. Correa. I hear what you are saying. Ms. Dueholm, I hear 
what you are saying. My concern is strict accountability. Does 
that mean 50 cents out of every dollar is then going to be 
spent on overhead?
    Ms. Dueholm. That is a real challenge, Congressman. I would 
say that we have 2 issues. One is if we want the 
accountability, we need organizations that are able to provide 
that sort of monitoring and accounting and that often does come 
with a cost. But I share your interest in making sure that the 
maximum amount gets to those that we are seeking to benefit. We 
are constantly reevaluating and trying to get that balance 
right and we will continue to do that.
    Mr. Correa. Thank you. Finally, ma'am, I would say a 
follow-up question here which is I think as Americans, we do 
not look south of the border until we see smoke. We only act 
when we see fire. Forty years in my opinion of failed policy 
south of the border. We will spend a trillion dollars in 
Afghanistan and we do not even look south of the border when 
this is our backyard. We have to manage it and make sure if 
things are not going right, we step in. As a legislature, I 
think we have just got to say to folks south of the border, we 
are going to be watching you and we are going to hold you 
accountable because what you do affects us. You taking care of 
your citizens is not only your job; it is our job as well. So I 
just look forward to working with you and trying to figure out 
a way for us to address these issues holistically and make sure 
as legislators we force ourselves to always be looking south of 
the border.
    Thank you very much, and Madam Chair, I yield.
    Chairwoman Barragan. Thank you, Mr. Correa.
    The Chair now recognizes for 5 minutes the gentleman from 
North Carolina, Mr. Bishop.
    Mr. Bishop. Thank you, Madam Chairman.
    Among the several hundred thousand border enforcement 
encounters over the 4 complete months since the inauguration of 
President Biden, I think I have got the number of about 59,000 
roughly were unaccompanied children. Of course, everybody 
understands that they are staying in the United States. It 
would appear to me, and as I listen to testimony in this 
hearing in the questions, the Biden administration policy is 
all aimed in the direction of speeding the passage of UCs from 
CBP to the Department of Health and Human Services, Office of 
Refugee Resettlement. Of course, then they have a stay in an 
influx care facility and then they are sent throughout the 
country to take up residence with some family member or a 
guardian or a sponsor I guess you call it.
    Mr. Shahoulian, in your testimony you spoke of the top 
priority being to address the needs of children, and you said 
that the Biden administration has expanded capacities of agents 
to speed up the processing and the placement of unaccompanied 
children. Mr. Huffman cited what he called a success, moving 
unaccompanied children out of CBP custody faster, both by 
adding facilities and improving efficiency. Mr. Shahoulian, 
again, in your comments you touted what has been done as having 
completely transformed border processes. Apparently, again, it 
is all aimed at eliminating overstays of unaccompanied children 
with the CBP.
    I would submit that this is unfortunately cruelly naive. 
Here is the distinction. The Trump administration policies the 
Ranking Member referred to were continually adapted to attempt 
to attenuate the flow of illegal crossings. But Biden policies, 
including all of those Mr. Shahoulian referred to and touts as 
a success do not even make an attempt to attenuate the flow. 
The success you tout is increasing the bandwidth, moving people 
in faster. This tunnel vision is so bad that one of the policy 
changes that HHS has made is to waive criminal background 
checks for occupants who live in the households of sponsors of 
unaccompanied children placed by HHS. There is a Bloomberg 
article I saw from yesterday during the Energy and Commerce 
hearing. I understand that the impact of this is that you are 
limited to basically internet search engines to try to 
determine who we are talking about you are placing people with, 
and we have been told by the CBP that the cartels dominate the 
crossing process and they are throughout the United States 
engaging in trafficking, sex trafficking, indentured servitude 
enforcement, and we have dropped our guard to that degree.
    Mr., and I cannot say your name, is it Lechleitner? Is that 
what it is called? What is your name, sir?
    Mr. Lechleitner. Yes, sir. It is Lechleitner. That was 
right.
    Mr. Bishop. Thank you. Can you speak to that? I mean, given 
what is happening, are we not subjecting all of these children 
to the risk of criminality? As Andy Biggs said it, they are 
making the U.S. Government the logistics arm of the cartels. I 
mean, that seems horrible to me.
    Mr. Lechleitner. Well, sir, thanks. That is a good 
question. We are the investigative arm of Homeland Security as 
it relates to the transnational crime. I cannot speak to 
whether or not there may be crimes that are going to be 
committed, but if HHS comes across those crimes or if other of 
our partners do come across those crimes and report them to us, 
then we are going to follow up on that. We follow up on all of 
these very seriously. We are victim-centric as it relates to 
this vulnerable population. I can say from 2020 to 2021, our 
stats, probably partly due to COVID. You know, unfortunately, 
it is complicating things, they train down a little bit. I can 
say that but that is partly due to the COVID situation. But 
quite frankly, sir, we do not know the unknown. We do not even 
know what has been put before us, and I really cannot speak to 
more than that.
    Mr. Bishop. Well, I get that. But the problem is that we do 
know. I think it is sort-of a bureaucratic shortsightedness if 
you will forgive me to just say, well, we are doing great. We 
are moving them through faster. Yes, we do not know who we are 
sending them to. We know MS-13 is out there. We know there is 
trafficking going on. We know that people are being sold or put 
into indentured servitude right here in our country and the 
cartels are active everywhere. Then we pat ourselves and say 
that is humanity. That is blinkered beyond belief. It is a 
classic example of heart over mind. It is not a rational 
policy. There is not humanitarian in the slightest.
    Madam Chairwoman, I yield back.
    Chairwoman Barragan. I thank the Member for his questions.
    The Chair now recognizes the gentleman, rather, the Chair 
now recognizes for 5 minutes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Madam Chair. I appreciate you very 
much you holding this hearing. I think it is obviously timely. 
My friend, Mr. Correa, Representative Correa, from California, 
said that failed policies for 40 years. As somebody who was 
born and raised in Texas, who has been to every little town 
along the border, I can tell you that it has been longer than 
40 years with those problems and mismanagement of immigration. 
It does not stop with my upbringing and growing up in Texas. 
With the Tennessee Southern Railway here in my district, 
actually, going from Canada all the way through to Mexico, 
right now they go to Laredo and then all of the Americans get 
off the train and then the Mexicans get on the train and it 
goes to finish its delivery.
    So Henry Cuellar and I have been working a long time. I am 
just prefacing my questions with this comment that we have 
serious problems. I think there seems to be a great interest in 
trying to make sure that we are successfully getting the other 
side looking bad as opposed to trying to get the policy 
straightened out. One of the things that I am concerned about, 
and I have been to all the borders. I think it is a childish 
question to raise to everybody. Have you been to the border? 
Like if you have been to the border, somehow you should get, 
you know, like some cookies or milk or, you know, some dog 
biscuits. I am not sure. But I think the issue is the policy, 
not visiting the border.
    But let me go on. Mr. Huffman, you know, the trends in 
migration are cyclical. I have seen it all of my life and 
during the spring and then decreasing when the weather starts 
getting too hot for travel, like around this time, and 
certainly in July and August you are going to see a falling 
off. So it has been at record levels in the past few months and 
the questions about whether the immigrants will continue to 
rise into the heat of summer. But what I want to know is what 
is DHS and CBT doing to better position themselves to treat 
these migrants more humanely than they have been treated 
previously, while at the same time processing them in an 
efficient manner?
    Mr. Huffman. Thank you, sir. I appreciate the opportunity 
to address that.
    So we have learned a lot of things over the years as we 
have trends over the years to see more unaccompanied children 
that come into our custody. As we mentioned previously, 
historically, our facilities were designed for a single adult 
population because that was the historical trends over the 
years that we dealt with. So we have had to adjust how we staff 
our folks, the type of cells we have used and increased the 
capacity. So now in these types of surges when we stand up 
soft-sided facilities, they are specifically designed for 
unaccompanied children and family units with how the pods are 
laid out, air conditioning involved, opportunities to have the 
medical examinations done on regular basis, the medical care we 
provide to the children there, the ability to have observations 
of any psychological issues and challenges they may be facing 
as well. We have established a medical contract. We have got 
like $481 million in medical contracts established of which we 
spent $160 million already just providing these medical 
services alone. So that alone in itself makes a big difference 
in how they are treated and what they say. We have adjusted the 
nutrition of the meals to address these things. We have a much 
better oversight, both internally ourselves with our juvenile 
coordinator office, plus oversight from the floors monitors as 
well that helps make sure we are in compliance with those 
guidelines. It helps make sure that we are at the best standard 
of care that we can give for those guidelines. Basically, and I 
will say this again, for us, the best thing we can do is move 
them out of our facilities onto professional child care 
specialists. Those efficiencies gained there allow us also to 
put our officers and agents back on the line quicker to be 
doing border and apportionment missions as opposed to being 
confined in these facilities caring for children as well.
    So there is a two-fold effort for that. It is not just it 
helps the kids but it also makes us more operationally 
efficient as well. It does not diminish our operational 
capacity as much in doing so.
    I see I am out of time so I will stop.
    Mr. Cleaver. Am I out of time, Madam Chair?
    Chairwoman Barragan. Yes.
    Mr. Cleaver. Thank you for the time.
    Chairwoman Barragan. Thank you. Mr. Cleaver yields back.
    I have to say I agree with you, Mr. Huffman. When you talk 
to the men and the women of the Border Patrol, they will tell 
you day in and day out that they are in the law enforcement 
business, not in the business of caring for children and so 
they actually appreciate having the children processed out to 
HHS.
    With that, the Chair recognizes for 5 minutes the gentleman 
from Georgia, Mr. Clyde.
    Mr. Clyde. Thank you, Madam Chair and Ranking Member for 
holding this important hearing.
    Since Inauguration Day, President Biden, by Executive 
Order, has acted to dismantle our Nation's immigration system, 
spurring the crisis we are witnessing at the Southwestern 
Border. According to figures released this past May, CBP has 
encountered over 530,000 along the Southwest Border since 
January 21. That is a 20-year high, while deportations are at 
the lowest levels our country has seen in 20 years. CBP has 
also arrested over 5,800 individuals with criminal convictions 
and that is only the number of people that we have caught. In 
fiscal year 2020 through April, there were 21,045 unaccompanied 
alien children but this year, fiscal year 2021 through April, 
same similar time frame, there have been 65,825 unaccompanied 
alien children. That is a 3 times increase.
    In rolling back successful Trump-era immigration policies, 
it is no secret the administration has emboldened the cartels 
to continue making billions of dollars trafficking narcotics 
and people, many of which are children, across our border. 
Truly, the Biden administration has made our Federal Government 
the last link in the chain of the human smuggling of children 
and this is shameful.
    So Mr. Shahoulian, in your testimony you say the Biden 
administration has employed a whole-of-Government approach to 
solve issues related to the care, transfer, and placement of 
unaccompanied children and it is strongly committed to 
preventing the exploitation of this vulnerable population. 
However, there are reports, and my colleague, Mr. Bishop, 
mentioned one from Bloomberg that said that unaccompanied 
children are being released before their sponsor's background 
checks have been completed and that certain requirements for 
background checks for caregivers have been waived at HHS 
emergency influx sites. Can you speak to those reports, sir?
    Mr. Shahoulian. So I do not know the content of those 
reports. You know, I do think those are questions that are 
better directed to HHS. I am happy to go and make sure that we 
can provide answers after consultation with HHS but I am not 
aware of the things that you are mentioning, sir.
    Mr. Clyde. OK. Well, but you mentioned a whole-of-
Government approach; right? I mean, numerous ones of you have 
mentioned a whole-of-Government approach. Ms. Dueholm, Mr. 
Huffman were all talking a whole-of-Government approach. Should 
that not mean that your agency is aware of and is helping to 
coordinate these efforts? You know, should not the Department 
of Homeland Security have visibility into the vetting of 
children's sponsors? You care about that; right?
    Mr. Shahoulian. Absolutely, sir. Absolutely, we care about 
that. I will say that we have sent to HHS to help them 
Federalize the work force in these efforts. We have sent our 
most experienced asylum officers with deep experience in 
interviewing individuals, vetting people, running background 
checks, determining credibility and determining family 
relationships. We have sent our best officers over to HHS to 
help them improve that process. The stories mentioned, I am 
unaware of those so I cannot really speak to them just yet, but 
I am happy to get back to you on those.
    Mr. Clyde. So you then do not have confidence that the 
unaccompanied children being released, that the background 
checks of their sponsors have been fully completed and vetted; 
is that correct then?
    Mr. Shahoulian. Sir, again, I am just going to say I do not 
lack confidence in our Government's efforts or the work that 
our Federal employees are doing, either at DHS or at HHS. What 
I am saying is that of the news articles of which you speak I 
have not read. I would like to confer back with HHS, and I am 
happy to provide an answer to this question.
    Mr. Clyde. OK. All right. I would appreciate you getting 
back to us and letting us know whether or not we are cutting 
corners on background checks for the sponsors of these people. 
Thank you.
    The current crisis and surge of illegal aliens at the 
border have clearly enriched the transnational criminal 
organizations through their human trafficking and smuggling 
operations. So the next question I have is for Mr. Patrick 
Lechleitner, I believe I said that correctly, from HSI.
    Mr. Lechleitner. That is correct.
    Mr. Clyde. By the way, I have been to the border twice and 
I commend your efforts at the border. You guys really do a 
fantastic job there, I think, from what I saw, and I really 
appreciate it. These cartels need to be held to account.
    So in your opinion, has the human smuggling of children 
increased in the last 5 months?
    Mr. Lechleitner. No, sir. We do not have appreciable data 
from our records that the smuggling of children has been 
increased, but we only know what is referred to us. So I would 
defer to CBP and what they are seeing at the border. But as far 
as encountered or referrals for investigations for us, we are 
seeing I would say a slight, if any, increase. But I cannot 
speak to what is going on at the border for interdictions.
    Mr. Clyde. OK. Some estimates have placed human smuggling 
and related activities at a billion dollars a year industry. 
Would you agree with that?
    Mr. Lechleitner. Yes, I would.
    Mr. Clyde. OK. So have the cartels changed their operations 
along the Southwestern Border to maximize their profits and 
minimize their risk when it comes to human smuggling?
    Chairwoman Barragan. I am going to let the witness respond 
but his time has expired. Mr. Lechleitner, would you like to 
respond?
    Mr. Lechleitner. Yes, ma'am. The cartels have adapted and 
they recognize that there is a profit motive and increased 
profit to be seen from human smuggling. So when I am speaking 
about the transnational criminal organizations, the cartels, 
the traditional drug organizations, they have seen that there 
is a profit motive there so they have been adapting and 
utilizing some different techniques. Instead of just taxing 
their way through, they are facilitating them in other ways and 
also partnering with them. So we have seen some of that. But it 
is not unusual for transnational criminal organizations to do 
this. They care not for the commodity. They just care for the 
profit and they will find whatever way it is to make that 
profit and make more of it. They are bound by no law.
    Chairwoman Barragan. Thank you, sir.
    The gentleman's----
    Mr. Clyde. OK. Thank you, and I yield back.
    Chairwoman Barragan. Thank you. The gentleman yields back.
    The Chair recognizes for 5 minutes the gentleman from 
Texas, Mr. Green.
    Mr. Green. Thank you every so much, Madam Chair. I greatly 
appreciate the opportunity to be heard, and I greatly 
appreciate you hosting this hearing.
    Madam Chair, when Cubans were coming to this country by the 
thousands, we did not turn them back if they could reach our 
land, our shore. We adopted something called a ``wet foot, dry 
foot'' policy. If you could get one foot on dry land and the 
other foot remained in the water, we welcomed you. In fact, it 
became an invitation for Cubans to come to this country and you 
could stay because of the ``wet foot, dry foot'' policy.
    Mr. Clyde. That was a terrible policy.
    Mr. Green. I heard someone, dear brother, I hope you will 
allow me to continue without interruption.
    We were Good Samaritans at that time it seems. We did not 
ask what will happen to us if we allow the Cubans. We were 
asking what will happen to them if we do not allow them. This 
is what a certain person said with reference to persons who 
were moving along a certain dangerous route and this person was 
injured and beset upon by thieves. What will happen to the 
person who is hurting if we do not help?
    But let me go further because this is what is really 
important. In October 1980, we had something called the Mariel 
boat lift. At that time, 125,000 Cubans came to this country 
between October 15 and October 31. Here is what is really 
interesting about the 125,000 refugees I might add. Many of 
them were released from jails. Many of them were released from 
mental health hospitals. Check the empirical evidence. What I 
say is true. Released from jails and mental health hospitals. 
We did not call them illegal aliens. We called them refugees. I 
am not the guy who is going to see a baby thrown over a wall 
and dropped and then walk over and pick the baby up and throw 
it back over the wall. I am not. By the way, I do not think you 
would either. Any of the persons on this committee, I do not 
think you have that kind of heart.
    But my point is this. If we can have ``wet foot, dry 
foot,'' if we can find a way to accommodate others, if we could 
allow the jails to be open and not call them illegal aliens, 
can we not be as courteous and kind to these babies who are 
coming and not call them illegal aliens? That is just from my 
heart to everybody else's. If your heart rejects my thoughts, I 
understand. But I see these as babies. As children. Trying to 
get to a better life. Their parents do not send them because 
they want their children to travel along the Jericho Road from 
deep South American to the United States. They want their 
children to have a better life.
    So I would ask this of Mr. Shahoulian. I believe you are 
the person who brought up the ``wet foot, dry foot'' policy 
without saying it. Is what I said correct, sir?
    Mr. Shahoulian. About the ``wet foot, dry foot'' policy, 
sir?
    Mr. Green. Yes, sir. Yes, sir.
    Mr. Shahoulian. Yes, I will say, I mean, you are, yes, 
there was a period of time, and we do have the Human Adjustment 
Act that allows people who are paroled in to adjust status 
after a year, but yes, for many, many years there was a policy 
that basically allowed human nationals to stay if they reached 
dry land. Yes.
    Mr. Green. Yes. The policy was known as ``wet foot, dry 
foot'' because if you had one foot on dry land and one in the 
water you had the right to take that other foot out of the 
water, walk on in, and the invitation was such that you could 
become an American citizen. True?
    Mr. Shahoulian. Sir, if you made it, on whether you had to 
have one foot or not, I am not 100 percent sure of those facts, 
but I will say that if you were paroled into the United States, 
I mean, there were some people that were denied.
    Mr. Green. Yes, the people who were denied were called 
persons from Haiti. Haitians did not have the benefit of ``wet 
foot, dry foot.''
    Mr. Shahoulian. Well, there were some people, I mean, we 
determined that individuals pose a public safety risk. I mean, 
there were some people who were----
    Mr. Green. Well, those who were released from the jails, 
did they pose a public safety risk?
    Mr. Shahoulian. Sir, there were, from the Cuban Mariel boat 
lift there were about 3,000 individuals who were determined to 
pose a significant public safety risk and were held excluded. 
So not everyone was allowed to stay.
    Mr. Green. But some of those who were from jails were. What 
about the mental health hospitals?
    Mr. Shahoulian. Sir, again, there were a number of, I mean, 
I am saying there were a number of individuals that were held 
at the border and determined to be excluded because of the 
public safety issue. Not everyone stayed. I just want to be 
clear about that. Of the Cuban----
    Mr. Green. I do not agree with you. Not everyone stayed, 
but of the 125,000, my dear sir, you and I both know that the 
overwhelming majority of them stayed.
    Mr. Shahoulian. The overwhelming majority----
    Mr. Green [continuing]. Exceptions and say some did not 
stay. Some of them with mental health issues stayed and some of 
those who were out of jail stayed. True?
    Chairwoman Barragan. Mr. Green, your time has expired.
    Mr. Green. You have been more than generous, Madam Chair. 
Thank you very much. Thank you.
    Chairwoman Barragan. Sure. Thank you. The gentleman yields 
back.
    The Chair recognizes for 5 minutes the gentlewoman who has 
been waiting very patiently, from New York, Ms. Clarke.
    Ms. Clarke. I would like to thank you, Madam Chair, for 
really bringing this very timely hearing to the American 
people. I think we all need to take a deep breath and, you 
know, search our souls as Congressman Green has said about our 
collective humanity. When we can look at children and see them 
as a threat to our National security and all they are seeking 
and their parents are seeking are an opportunity to bring them 
to safety, to connect them with loved ones in this Nation as 
the conditions of their homes of origin continue to deteriorate 
and we cannot look at ourselves and say we would sacrifice the 
same way for our own children then clearly there is some soul 
searching that needs to be done. Let me just put it that way.
    But my first question is for Mr. Shahoulian. While most 
unaccompanied children arriving at our border have family in 
the United States, a number of these children arrive at the 
border with close family members such as a grandparent, aunt, 
or an uncle. Yet, DHS policy only recognizes a parent and child 
relationship despite the fact that a grandparent or an uncle 
would qualify as a sponsor for the child.
    Is DHS considering a change in policy to help keep these 
families together and expedite processing of children in your 
custody?
    Mr. Shahoulian. Thank you, Congressman, for that question.
    So I will say that it is more than DHS policy; it is the 
law. Right? Under the Trafficking and Victim Protection 
Reauthorization Act of 2008, a child who is not accompanied by 
a parent or a lawful, sorry, a legal guardian and for whom a 
parent or legal guardian is not willing to show up to pick them 
up, that individual, by law, is an unaccompanied child and by 
law we are to transfer them to HHS. That said, we have been in 
discussions with HHS to look at things that we can do to 
prevent family separation as much as possible but by law we are 
required to treat such children as unaccompanied minors and to 
send them to HHS.
    Ms. Clarke. So I understand that in limited circumstances 
these family units have been released together when it was in 
the best interest of the child. What actions can DHS take so 
that more of these family units are released together while 
ensuring children can still receive sufficient legal 
protection?
    Mr. Shahoulian. So again, we are in conversations to look 
at what can be done. We have been in conversations with HHS 
about co-locating in certain facilities. You know, we do, when 
we have unaccompanied children who are encountered with other 
family members we do try to ensure that there is contact with 
those other family members. But again, by law, we are required, 
we cannot by law release them. We must transfer them to HHS. It 
is HHS's legal responsibility to find a suitable sponsor for 
those children.
    I think some of the stories you are mentioning are some 
individuals who are provided parole through ports of entry and 
there may be situations, but this by and large is not a 
practice for individuals when encountered inside the United 
States.
    Ms. Clarke. Thank you.
    Ms. Dueholm, in order to address the root causes of 
migration, we must ensure that there are legal avenues for 
individuals to come to the United States. Can you please expand 
on the administration's efforts to increase these legal 
options, including reinstating the Central American Minors 
Program?
    Ms. Dueholm. Thank you, Congresswoman. Certainly, I would 
be happy to.
    There are, I would say, 3 main areas that we are working to 
expand legal options for residents of Central America to be 
able to come to the United States legally. As you mentioned, 
the Central American Minors program is one of those for 
families who have parents legally in the United States to be 
able to petition for their children to join them through the 
Central American Minors Program as part of the U.S. Refugee 
Assistance Program. When that program was closed in 2018, we 
had about 5,000 applications and we have begun reprocessing 
those. We look forward to hopefully expanding that in the near 
future to be able to accommodate other folks with legal status 
in the United States to be able to bring their children. We are 
also expanding to seasonal visas and we are also working to 
increase processing time for immigrant visas that are 
backlogged within the realm of our COVID limited processes.
    Ms. Clarke. So under the Central American Minors Program, 
how many cases have been completed under this administration, 
and how many cases were pending a decision when the Trump 
administration terminated the program?
    Ms. Dueholm. Sure. So under the current administration, we 
have processed so far a little over 1,000. There had been, I 
believe, 5,000 pending at the time.
    Ms. Clarke. Very well. Very well.
    When can we expect for the new administration to accept new 
applications for the program?
    Ms. Dueholm. I believe we will be seeing an announcement 
imminently, Congresswoman.
    Ms. Clarke. Very well. Let me thank you all for your expert 
witnessing here today, your testimony. With that, Madam Chair, 
I yield back.
    Chairwoman Barragan. Thank you. Thank you, Madam 
Representative.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions. The Members of the 
subcommittee may have additional questions for the witnesses 
and we ask that you respond expeditiously in writing. The 
committee record shall be kept for 10 days.
    I apologize. I wanted to give more ending remarks but I 
have been called for a vote in my mark-up. I want to thank our 
Members and everybody for participating. Without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 3:36 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
